No. 20-___
IN THE

Supreme Court of the United States
————
DONALD J. TRUMP,
v.

Petitioner,

WISCONSIN ELECTIONS COMMISSION, ET AL.,
Respondents.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
————
PETITION FOR WRIT OF CERTIORARI
————
WILLIAM BOCK, III
Counsel of Record
JAMES A. KNAUER
KEVIN D. KOONS
KROGER, GARDIS & REGAS, LLP
111 Monument Circle
Suite 900
Indianapolis, IN 46204
(317) 692-9000
wbock@krglaw.com
Counsel for Petitioner
December 30, 2020

QUESTIONS PRESENTED
Since the 1980s, the Wisconsin Legislature has
authorized absentee voting but explicitly commanded
it must be “carefully regulated to prevent the potential for fraud and abuse.” Wis. Stat. § 6.84(1). During
the 2020 Presidential election, however, the Wisconsin Elections Commission (WEC) and local election
officials implemented unauthorized, illegal absentee
voting drop boxes, compelled illegal corrections to absentee ballot witness certificates by poll workers, and
encouraged widespread voter misuse of “indefinitely
confined” status to avoid voter ID laws, all in disregard of the Legislature’s explicit command to “carefully regulate” the absentee voting process.
After Election Day, Respondents encouraged the
counting of, and did count, tens of thousands of invalid absentee ballots received in violation of the “mandatory” requirement of Wis. Stat. § 6.84(2) that absentee ballots “in contravention of the [specified statutory absentee balloting] procedures…may not be
counted.”
The foregoing raises the following questions:
1. Whether WEC and local election officials violated Art. II, § 1, cl. 2 of the United States Constitution and the Fourteenth Amendment’s guarantee of
Equal Protection during the 2020 Presidential election by implementing unauthorized absentee voting
practices in disregard of the Wisconsin Legislature’s
explicit command that absentee voting must be “carefully regulated” and absentee ballots cast outside of
the Legislature’s authorized procedures “may not be
counted”?
ii

2. Whether this Court should declare the Wisconsin election unconstitutional and void under Article II
and thus failed under 3 U.S.C. § 2 and allow the Wisconsin Legislature to appoint its electors?
3. Whether federal courts may rely on the doctrine of laches to avoid reviewing Electors Clause or
Equal Protection claims arising after absentee balloting began or which could not have reasonably been
brought before absentee balloting commenced?

iii

PARTIES TO THE PROCEEDING AND RULE
29.6 CORPORATE DISCLOSURE STATEMENT
The parties to the proceedings include the Petitioner Donald J. Trump and the following Respondents:
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

Ann S. Jacobs, Wisconsin Elections Commission (“WEC” or the “Commission”) member
Mark L. Thomsen, WEC member
Marge Bostelmann, WEC member
Dean Knudson, WEC member
Robert F. Spindell, Jr., WEC member
Scott McDonell, Dane County Clerk
George L. Christenson, Milwaukee County
Clerk
Julietta Henry, Milwaukee Election Director
Claire Woodall-Vogg, Executive Director of the
Milwaukee Election Commission
Tom Barrett, Mayor of the City of Milwaukee
Jim Owczarski,City Clerk of the City of Milwaukee
Satya Rhodes-Conway, Mayor of the City of
Madison
Maribeth Witzel-Behl, Clerk of the City of
Madison
Cory Mason, Mayor of the City of Racine
Tara Coolidge, Clerk of the City of Racine
John Antaramian, Mayor of the City of Kenosha
Matt Krauter, Clerk of the City of Kenosha
Eric Genrich, Mayor of the City of Green Bay
Kris Teske, Clerk of the City of Green Bay
Douglas J. La Follette, Wisconsin Secretary of
State
iv

•

Tony Evers, Governor of Wisconsin

No party is a nongovernmental corporation.
LIST OF ALL PROCEEDINGS
DIRECTLY RELATED
Trump v. Wisconsin Elections Commission, et al.
No. 2:20-cv-01785, U.S. District Court for the Eastern
District of Wisconsin. Judgment entered Dec. 12,
2020.
Trump v. Wisconsin Elections Commission, et al.
No. 20-3414, U.S. Court of Appeals for the Seventh
Circuit. Judgment entered Dec. 24, 2020.

v

TABLE OF CONTENTS
QUESTIONS PRESENTED .................................... ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 CORPORATE
DISCLOSURE STATEMENT ................................. iv
LIST OF ALL PROCEEDINGS
DIRECTLY RELATED ............................................. v
TABLE OF AUTHORITIES .................................... xi
OPINIONS BELOW ................................................. 1
JURISDICTION ....................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED....................................... 1
STATEMENT OF THE CASE.................................. 2
I.

The Wisconsin Legislature’s
Stringent Regulation of Absentee
Ballots ................................................................. 6

II. The Wisconsin Legislature’s
Absentee Ballot Laws Were Violated
in the 2020 Presidential Election ...................... 8
A. Illegal Unmanned and Human
Drop Boxes Were Used in the
Election ......................................................... 8
1. Legislature Rejected Drop
Boxes in April .......................................... 8
vi

2. In June Five Democrat
Mayors Coordinate to
Illegally Implement Drop
Boxes With Private Funding .................. 9
3. WEC Illegally Endorsed Drop
Boxes in August ..................................... 11
4. Unmanned Drop Boxes Are
Not Authorized in the
Election Code ......................................... 12
5. The Massive Illegal Use of
Unmanned Drop Boxes ......................... 13
6. The Illegal “Human Drop
Boxes” .................................................... 15
7. Potential for Partisan
Advantage .............................................. 15
B. Alteration of Absentee Ballot
Witness Certificates ................................... 16
1. Wisconsin Law Mandates
That An Incomplete Witness
Certificate Address
Invalidates the Absentee
Ballot...................................................... 16
2. WEC Instructed Clerks to
Illegally Tamper with
Witness Certificates .............................. 17
3. The Seventh Circuit and
Supreme Court Decisions
vii

Regarding Absentee Ballot
Witnessing and Ballot
Counting Deadline ................................ 17
4. WEC Withdraws First
Instruction to Tamper with
Witness Certificates .............................. 18
5. WEC Issues New Illegal
Instruction to Clerks to
Tamper with Witness
Certificates ............................................ 19
C. Violating Photo ID Law Through
Purposeful Non-Enforcement of
the “Indefinitely Confined”
Exception..................................................... 19
1. Illegal Social Media Posts
from Dane and Milwaukee
Clerks ..................................................... 20
2. WEC’s Illegal Guidance Guts
Enforcement of Indefinitely
Confined Rules ...................................... 20
3. Wisconsin Supreme Court’s
Failure to Promptly Rule
Locks WEC’s Illegal
Guidance In Place ................................. 22
III. The Decisions Below......................................... 23
A. District Court .............................................. 23
B. Seventh Circuit ........................................... 24
viii

REASONS FOR GRANTING THE
WRIT ....................................................................... 25
I.

The Lower Courts’ Decisions Allow
the Wisconsin Executive Branches
to Violate the Electors Clause in
Conflict with this Court’s Decisions ................ 26
A. Wisconsin Election Officials
Violated Article II ....................................... 27
1. The Legislature Did Not
Authorize Drop Boxes ........................... 29
2. The Legislature Did Not
Authorize Clerks to Alter
Witness Certificates .............................. 32
3. WEC’s “Indefinitely
Confined” Instruction ............................ 33
B. The Seventh Circuit’s “Manner”
and “Mode” Distinction
Contravenes Article II, Bush v.
Palm Beach Cty., and Bush v.
Gore ............................................................. 33
C. Contrary to the Seventh Circuit,
Federal Courts Have the Power
to Independently Interpret State
Election Law in the Context of
Presidential Elections................................. 34

II. Wisconsin Violated Equal Protection
Through the Standardless
ix

Implementation of Absentee Ballot
Drop Boxes Without Meaningful
Protections Against Vote Dilution
and Fraud ......................................................... 35
III. The Seventh Circuit’s Laches
Decision Contravenes Article II and
Purcell v. Gonzalez ........................................... 36
IV. This Court Should Hold the
Wisconsin Election Void and the
Legislature May Appoint Electors
Under 3 U.S.C. § 2 and Article II .................... 39
CONCLUSION ....................................................... 41
Appendix A: Seventh Circuit Court of Appeals
(Dec. 24, 2020) ............................... 1a
Appendix B: Seventh Circuit Court of Appeals
Judgment (Dec. 24, 2020) ........... 12a
Appendix C: Wisconsin District Court Decision
and Order (Dec. 12, 2020) ........... 13a
Appendix D: Wisconsin District Court
Judgment (Dec. 12, 2020) ........... 47a
Appendix E: Key Wisconsin Election Code
Provisions Relied Upon By
Petitioner ..................................... 49a

x

TABLE OF AUTHORITIES
Cases
Anderson v. Celebrezze,
460 U.S. 780 (1983) .................................................. 3
Andino v. Middleton,
141 S.Ct. 9 (2020) ................................................... 37
Arizona Free Enterprise Club’s Freedom Club Pac v.
Bennett,
564 U.S. 721 (2011) ................................................ 36
Baker v. Carr,
369 U.S. 186 (1962) ................................................ 41
Baldwin v. Cortes,
2008 WL 4279874 (M.D.Pa. Sept. 12, 2008) ......... 29
Bush v. Gore,
531 U.S. 98 (2000) .......................................... passim
Bush v. Palm Beach Cty. Canvassing Bd.,
531 U.S. 70 (2000) .......................................... 3, 5, 34
Carson v. Simon,
978 F.3d 1051 (8th Cir. 2020) ...................... 4, 28, 34
Church of Scientology v. United States,
506 U.S. 9 (1992) .................................................... 40
Crawford v. Marion County Election Board,
553 U.S. 181 (2008) .................................................. 7
Democracy N Carolina v. N. Carolina State Bd. of
Elections,
2020 WL 6589362 (M.D.N.C. Oct. 2, 2020) ....... 4, 28
xi

Democratic Nat’l Comm. v. Bostelmann,
2020 WL 3619499 (7th Cir. Apr. 3, 2020) ............. 18
Democratic Nat’l Comm. v. Bostelmann,
451 F. Supp. 3d 952 (W.D.Wis. 2020) .................... 18
Democratic Nat’l Comm. v. Bostelmann,
977 F.3d 639 (7th Cir. 2020) .................................. 37
Democratic Nat’l Comm. v. Wisconsin State
Legislature (hereafter, “DNC II”), 141 S. Ct. 28, 29
(Oct. 26, 2020),
141 S. Ct. 28, 29 (Oct. 26, 2020) ........... 5, 26, 27, 37
Gray v. Sanders,
372 U.S. 368 (1963) ................................................ 35
Hawkins v. Wisconsin Elections Comm’n,
948 N.W.2d 877 (Wis. 2020) .................................. 23
Jefferson v. Dane County,
2020 WL 7329433 (Wis. Dec. 14, 2020) ................. 22
Libertarian Party of Ohio v. Brunner,
567 F. Supp. 2d 1006 (S.D.Ohio 2008) .................. 29
Lingenfelter v. Keystone Consol. Indus., Inc.,
691 F.2d 339 (7th Cir. 1982) ............................ 36, 37
McPherson v. Blacker,
146 U.S. 1 (1892) ...................................................... 3
Olson v. Lindberg,
85 N.W.2d 775 (Wis. 1957) .................................... 12
Petrella v. Metro Goldwyn-Mayer, Inc.,
572 U.S. 663 (2014) ................................................ 37
Purcell v. Gonzalez,
549 U.S. 1 (2006) .............................................. 26, 37
xii

Randall v. Sorrell,
548 U.S. 230, 261-63 (2006) ................................... 36
Republican Nat’l Comm. v. Democratic Nat’l Comm.,
140 S. Ct. 1205 (2020) ............................................ 18
Republican Party v. Boockvar,
141 S. Ct. 1, 2 (2020) .............................................. 28
Reynolds v. Sims,
377 U.S. 533 (1964) ................................................ 41
Serv. Employees Int’l Union, Local 1 v. Vos,
946 N.W.2d 35 (Wis. 2020) .................................... 12
Texaco, Inc. v. Short,
454 U.S. 516 (1982) .................................................. 5
Trump v. Biden,
2020 WL 7331907 ................................................... 29
Trump v. Wisconsin Elections Comm’n,
2020 WL 7318940 (E.D.Wis. Dec. 12, 2020).......... 23
Tully v. Okeson,
977 F.3d 608 (7th Cir. 2020) .................................. 37
Statutes
28 U.S.C. § 1254(1) ...................................................... 1
3 U.S.C. § 15............................................................... 40
3 U.S.C. § 2................................................. 6, 26, 39, 41
U.S. Const. art. II, § 1, cl. 2 ............................... passim
Wis. Stat. § 227.112(3) ............................................... 12
Wis. Stat. § 5.02(6m) ................................................. 19
Wis. Stat. § 5.05(1)(f) ........................................... 11, 13
Wis. Stat. § 6.84(1)........................................... 7, 13, 14
xiii

Wis. Stat. § 6.84(2)........................................... 7, 29, 33
Wis. Stat. § 6.855 ....................................................... 13
Wis. Stat. § 6.855(1) ............................................. 12, 31
Wis. Stat. § 6.855(3) ................................................... 31
Wis. Stat. § 6.86 ......................................................... 13
Wis. Stat. § 6.86(1)(b) .......................................... 15, 32
Wis. Stat. § 6.86(2)(b) ................................................ 21
Wis. Stat. § 6.87 ......................................................... 13
Wis. Stat. § 6.87(2)..................................................... 32
Wis. Stat. § 6.87(4)(b)1 ........................................ 12, 29
Wis. Stat. § 6.87(4)(b)2 .............................................. 20
Wis. Stat. § 6.87(6d)............................................. 16, 33
Wis. Stat. § 6.87(9)..................................................... 30
Wis. Stat. § 6.875 ....................................................... 13
Wis. Stat. § 6.875(4)(a) ........................................ 12, 13
Wis. Stat. § 6.875(7) ................................................... 12
Wis. Stat. § 6.88 ......................................................... 13
Wis. Stat. § 6.88(1)............................................... 15, 30
Wis. Stat. § 6.88(3)(a) ................................................ 32
Wis. Stat. § 6.88(3)(b) .......................................... 12, 32
Wis. Stat. § 7.15(1)(k) ................................................ 12
Wis. Stat. § 7.15(2m) ................................................. 31
Wis. Stat. § 7.20(2)..................................................... 12
Wis. Stat. § 7.30(2)..................................................... 12
xiv

Wis. Stat. § 7.41(4)............................................... 12, 13
Wis. Stat. § 7.515(3)(a) .............................................. 13
Other Authorities
Carter-Baker Commission on Federal Election
Reform, Building Confidence In U.S. Elections
(Sept. 2005),
https://www.legislationline.org/download/id/147
2/file/3b50795b2d0374cbef5c29766256.pdf ........... 7
Federal Farmer, No. 12 (1788), reprinted in 2 THE
FOUNDERS’ CONSTITUTION (Philip B. Kurland &
Ralph Lerner eds., 1987).......................................... 5
Natelson, Robert G., The Original Scope of the
Congressional Power to Regulate Elections,
13 U. Pa. J. Const. L. 1 (2010) ................................. 4

xv

OPINIONS BELOW
The Seventh Circuit’s opinion (Pet.App. 1a–11a) 1
is reported at 2020 WL 7654295 (7th Cir. 2020). The
opinion of the district court (Pet.App. 13a–46a) is
published at 2020 WL 7318940.
JURISDICTION
The Seventh Circuit entered its judgment on December 24, 2020. Pet.App. 12a. This Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Article I § 4 of the United States Constitution
states in relevant part:
The times, places and manner of holding
elections for Senators and Representatives, shall be prescribed in each state
by the legislature thereof; but the Congress may at any time by law make or
alter such regulations, except as to the
places of choosing Senators.
Article II, § 1, cl. 2 of the United States Constitution (the “Electors Clause”) states in relevant part:
Each state shall appoint, in such manner as the Legislature thereof may direct, a number of electors, equal to the
References to the attached Appendix are styled:
“Pet.App. __a.” References to Petitioners’ Appendix filed
with the Seventh Circuit as Document No. 51 are styled:
“7th Cir. App. __.” References to ECF filings in the district
court are preceded by “ECF.” Electronically filed Seventh
Circuit documents are referred to as “7th Cir. Doc. __.”
1

whole number of Senators and Representatives to which the State may be entitled in the Congress…
The First Amendment to the United States Constitution provides:
Congress shall make no law respecting
an establishment of religion, or prohibiting the free exercise thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble, and to petition the Government for a redress of grievances.
The Equal Protection and Due Process Clauses of
the Fourteenth Amendment to the United States
Constitution state:
No state shall make or enforce any law
which shall abridge the privileges or
immunities of citizens of the United
States; nor shall any state deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal
protection of the laws.
Pertinent provisions from Title 3 of the U.S. Code
and Chapters 5, 6, and 7 of the Wisconsin Statutes
are reprinted beginning at Pet. App. 49a.
STATEMENT OF THE CASE
This Court has long recognized that, “in the context of a Presidential election, state-imposed restrictions implicate a uniquely important national in2

terest.” Anderson v. Celebrezze, 460 U.S. 780, 794-95
(1983).
The framers of the United States Constitution entrusted state legislatures with determining the manner in which Presidential electors are chosen. Art. II,
§ 1, cl. 2. The framers’ choice of state legislatures to
undertake this role is unambiguous. Consequently,
this Court has uniformly held that the power of the
state legislatures to set the rules for selecting electors
is plenary and exclusive. McPherson v. Blacker, 146
U.S. 1, 27 (1892). “Art. II, § 1, cl. 2, ‘convey[s] the
broadest power of determination’ and ‘leaves it to the
legislature exclusively to define the method’ of appointment.” Bush v. Gore, 531 U.S. 98, 113 (2000)
(per curiam) (Rehnquist, C.J., concurring), quoting
McPherson, 146 U.S. at 27. “The state legislature’s
power to select the manner for appointing electors is
plenary,” Bush v. Gore, 531 U.S. at 104.
“[I]n the case of a law enacted by a state legislature applicable not only to elections to state offices,
but also to the selection of Presidential electors, the
legislature is not acting solely under the authority
given it by the people of the State, but by virtue of a
direct grant of authority made under Art. II, § 1, cl. 2,
of the United States Constitution.” Bush v. Palm
Beach Cty. Canvassing Bd., 531 U.S. 70, 76 (2000)
(per curiam). Consequently, federal courts have previously understood that they are called upon to “respect…the constitutionally prescribed role of state
legislatures” while enforcing against other state ac-

3

tors, whether they be courts, 2 executives 3 or election
officials, 4 the “responsibility to enforce the explicit
requirements of Article II.” Bush v. Gore, 531 U.S. at
115 (Rehnquist, C.J., concurring).
The reason for identifying a single actor to set the
rules for choosing Presidential electors is evident.
Without a decisive bright line, the rules themselves
will become the object of a tug-of-war leading inevitably to confusion and an un-level playing field, inviting
disparate treatment of voters and candidates and
creating a huge opportunity for partisan manipulation.
The framers’ choice of state legislatures to set
both the rules for federal elections, in Art. I, § 4 (the
“Elections Clause”) and the manner in which Presidential electors are chosen is consistent with the
framers’ view that state legislatures are the bodies
closest to the people and that best represent the will
of the people. 5 The choice also has separation of powSee, e.g., Bush v. Gore, supra, (court infringed on legislative authority).
2

See, e.g., Carson v. Simon, 978 F.3d 1051, 1062 (8th
Cir. 2020) (executive branch official invaded exclusive authority of state legislature).
3

See, e.g., Democracy N Carolina v. N. Carolina State
Bd. of Elections, 2020 WL 6589362, at *1–2 (M.D.N.C. Oct.
2, 2020), amended on reconsideration, 2020 WL 6591367
(M.D.N.C. Oct. 5, 2020) (district court considered whether
directive of State Board of Elections conflicted with Election Code in violation of Article II).
4

See, e.g., Robert G. Natelson, The Original Scope of
the Congressional Power to Regulate Elections, 13 U. Pa. J.
5

4

ers ramifications, ensuring neither federal power nor
powerful holders of executive office at the state level
will hold sway over the manner in which the President is chosen. 6 Nor are un-elected bureaucrats to
wield that power. Pursuant to Article II, only state
legislatures directly accountable to the people
through regular elections are chosen.
As McPherson, Bush v. Gore and Bush v. Palm
Beach Cty. make clear, this Court has consistently
protected the constitutional role of state legislatures
to set Presidential election rules. This Court has
shown an analogous concern that state legislatures
remain in charge of federal elections under the Elections Clause. Democratic Nat’l Comm. v. Wisconsin
State Legislature (hereafter, “DNC II”), 141 S. Ct. 28,
29 (Oct. 26, 2020) (“The Constitution provides that
state legislatures—not federal judges, not state judgConst. L. 1, 31 (2010) (collecting ratification documents
expressing state legislatures were most likely to be in
sympathy with the interests of the people); Federal
Farmer, No. 12 (1788), reprinted in 2 THE FOUNDERS’
CONSTITUTION (Philip B. Kurland & Ralph Lerner eds.,
1987) (arguing electoral regulations “ought to be left to the
state legislatures, they coming far nearest to the people
themselves”).
State legislatures are also recognized to have special
competence “concerning the number of persons affected by
a change in the law, the means by which information concerning the law is disseminated in the community, and the
likelihood that innocent persons may be harmed by the
failure to receive adequate notice.” Texaco, Inc. v. Short,
454 U.S. 516, 532 (1982). All are topics relevant to changing election procedures.
6

5

es, not state governors, not other state officials—bear
primary responsibility for setting election rules.”)
(Gorsuch, J., concurring in denial of application to
vacate stay). Here, Wisconsin officials violated these
rules.
The current reported official vote difference between Petitioner and former Vice President Biden in
Wisconsin is 20,682 votes. However, those “official”
totals include hundreds of thousands of unlawful
votes stemming from ultra vires acts which usurped
the Legislature’s authority over the election.
For example, the constitutional violations discussed below, relating solely to illegal drop boxes,
render unlawful and invalid more than 91,000 ballots
which flowed through these illegal devices in the heavily Democrat cities of Milwaukee and Madison alone.
Given these locations had the highest percentage totals of Biden votes, these illegal, not countable ballots
represent far more than the margin of victory.
As Electors Clause violations involved far more
unlawful ballots than the margin of victory, it is impossible to determine which candidate received the
most lawful votes. This renders the election void pursuant to Article II. Upon a judicial determination the
election is failed, the Legislature is authorized by Article II (as confirmed by 3 U.S.C. § 2) to appoint electors in a different manner, given Wisconsin failed to
make a choice in the election held November 3, 2020.
I.

The Wisconsin Legislature’s Stringent
Regulation of Absentee Ballots

Long-standing policy of the Wisconsin Legislature
is that absentee voting “is a privilege exercised whol6

ly outside the traditional safeguards of the polling
place” that “must be carefully regulated to prevent
the potential for fraud and abuse.” Wis. Stat. §
6.84(1) (emphasis added). The Legislature prescribed
a statutory absentee voting procedure, declaring
“[b]allots cast in contravention of the procedures…
may not be counted.” Wis. Stat. § 6.84(2).
The Legislature’s careful approach toward absentee voting is well justified and squarely within its authority. In Crawford v. Marion County Election
Board, 553 U.S. 181, 195-96 (2008), this Court recognized fraudulent voting “perpetrated using absentee
ballots” demonstrates “that not only is the risk of voter fraud real but that it could affect the outcome of a
close election.” Id. (emphasis added).
The bipartisan Commission on Federal Election
Reform co-chaired by former President Jimmy Carter
and former Secretary of State James Baker concluded
“[a]bsentee ballots remain the largest source of potential voter fraud.” CARTER-BAKER COMMISSION ON
FEDERAL ELECTION REFORM, Building Confidence In
U.S. Elections, at 46 (Sept. 2005). 7 The Commission
noted, “absentee balloting in other states has been a
major source of fraud” and recommended: “States…
need to do more to prevent…absentee ballot fraud.”
Id. at 35.
Yet in the November 2020 election, WEC implemented absentee voting procedures directly contrary
to precisely drawn provisions in the Wisconsin ElecAvailable at:
https://www.legislationline.org/download/id/1472/file/3b50
795b2d0374cbef5c29766256.pdf.
7

7

tion Code meant to limit and “carefully regulate” absentee balloting.
II.

The Wisconsin Legislature’s Absentee Ballot Laws Were Violated in the 2020 Presidential Election
A. Illegal Unmanned and Human Drop
Boxes Were Used in the Election
1. Legislature Rejected Drop Boxes in
April

On Friday April 3, 2020, Wisconsin Governor Tony Evers issued an Executive Order relating to the
April primary election purporting to: 1) extend the
election to May 19, 2020; 2) eliminate the absentee
ballot witness requirement; and 3) allow absentee
ballots to be delivered to a “drop box location publicly noticed by the municipal clerk as an acceptable depository.” 8 The executive order also
called the Legislature into special session Saturday,
April 4, 2020 to consider and act upon the Governor’s
order. The Legislature met on Saturday but did not
approve the executive order. 9
On Monday, April 6, 2020, Governor Evers issued
a second executive order purporting to move the April
primary to June 9, 2020, suspend all in-person votWisconsin Gov. Executive Order No. 73, available at:
https://evers.wi.gov/Documents/COVID19/EO073SpecialSessionElections%20searchable.pdf.
8

See
https://www.jsonline.com/story/news/2020/04/04/wisconsinlegislature-adjourns-special-session-monday-voting-tracktuesday-election/2948444001/.
9

8

ing, and change absentee ballot deadlines. 10 He called
a special session for Monday, April 6, 2020 to consider and act upon the new election date and laws. The
Legislature met on Monday but did not approve the
Governor’s order. 11
With the primary election scheduled to begin the
next day, April 7, 2020, the Legislature asked the
Wisconsin Supreme Court to exercise original jurisdiction and enjoin the Governor’s April 6 executive
order. The court did so, stating, “the failure to enjoin
this action would irrevocably allow the Governor to
invade the province of the Legislature by unilaterally
suspending and rewriting laws without authority.”
Wisconsin Legislature v. Evers, No. 2020AP608-OA
(Wis. April 6, 2020). 12
2. In June Five Democrat Mayors Coordinate to Illegally Implement Drop
Boxes With Private Funding
On June 15, 2020, the Democrat Mayors of Madison, Milwaukee, Racine, Kenosha and Green Bay
submitted a grant request to a not-for-profit organization, “Center for Tech & Civic Life,” (“CTCL”), that
the Mayors called “Wisconsin Safe Voting Plan 2020.”
Despite the name of the plan, it did not apply to all of
Available at:
https://evers.wi.gov/Documents/COVID19/EO074SuspendingInPersonVotingAndSpecialSession2.pdf.
10

See https://wkow.com/2020/04/06/wisconsin-specialsession-to-stop-in-person-voting-resumes-monday/.
11

Available at:
https://www.wicourts.gov/news/docs/2020AP608_2.pdf.
12

9

Wisconsin, but only to their five cities, and it attempted to leverage private funding, unauthorized by
the Wisconsin Legislature or any federal entity, to
bring about mass absentee voting to favor Democrats,
the very form of voting the Legislature had expressly
stated was a “privilege” not a “right” and charged
should be “carefully regulated.”
The five Mayors agreed that, “[a]s mayors in Wisconsin’s five biggest cities” they would “work collaboratively” in relation to upcoming 2020 elections, including the Presidential election. Although the Legislature rejected Governor Evers’ drop box plans, the
five Mayors sought funding from CTCL to
“[e]ncourage and [i]ncrease [a]bsentee [v]oting ([b]y
[m]ail and [e]arly [i]n-person,” to “[u]tilize secure
drop-boxes to facilitate return of absentee ballots” and to “[e]xpand…[c]urbside [v]oting.” Ultimately, the Mayors received the entire $6,324,567
they sought from CTCL. 13
CTCL provided at least $250 million to jurisdictions administering elections, 14 which by CTCL’s own
See “The 5 Mayors’ Voting Plan”) available at:
https://www.techandciviclife.org/wpcontent/uploads/2020/07/Approved-Wisconsin-Safe-VotingPlan-2020.pdf. at 4 (emphasis added); CTCL Press Release: CTCL Partners with 5 Wisconsin Cities to Implement Safe Voting Plan, July 7, 2020, available at:
https://www.techandciviclife.org/wisconsin-safe-votingplan/.
13

“CTCL Receives $250M Contribution to Support Critical Work of Election Officials,” Sept. 1, 2020, available at:
https://www.techandciviclife.org/open-call/.
14

10

admission originated from one or two wealthy donors,
the largest being Facebook CEO Mark Zuckerberg. 15
CTCL funding not only paid for programs which undermined state election law and allowed municipalities to circumvent clear policies of the Legislature, it
also injected partisan politics into these illegal practices. The funding in the “Safe Voting Plan” deliberately went to five municipalities in which Democrat
Presidential Candidate Hillary Clinton won far more
votes than Republican Presidential Candidate Donald
Trump in the 2016 Presidential Election. 16
3. WEC Illegally Endorsed Drop Boxes
in August
Despite the Legislature’s earlier rejection of Governor Evers’ plan for drop boxes, WEC endorsed unmanned absentee ballot drop boxes in official guidance to local Wisconsin election officials on August
19, 2020, less than one month prior to the start of absentee balloting. WEC’s guidance contained no analysis of the legality of drop boxes under Wisconsin law.
WEC lacks authority to prescribe the manner of
conducting elections. Rather, it merely administers
and enforces Wisconsin’s election laws. Wis. Stat.
§§ 5.05(1), (2m). While WEC may “[p]romulgate
rules…for the purpose of interpreting or implementing the laws regulating the conduct of elections…”
Wis. Stat. § 5.05(1)(f), WEC did not exercise rulemaking authority to issue its drop box guidance. “[WEC’s]
guidance documents do not have the force of law.”
15

Id.

16

See ECF-1 (Complaint, p. 54, ¶ 229).

11

Wis. Stat. § 227.112(3). Such guidance documents are
merely “communications about the law – they are not
the law itself.” Serv. Employees Int’l Union, Local 1 v.
Vos, 946 N.W.2d 35, 67 (Wis. 2020).
4. Unmanned Drop Boxes Are Not Authorized in the Election Code
The Wisconsin Election Code does not authorize
unmanned absentee ballot drop boxes. They do not
remotely satisfy Wisconsin laws for handling absentee ballots.
In a “mandatory” section detailing the absentee
voting procedure, the Code identifies only two ways
an absentee ballot may be returned to the clerk: “The
envelope [containing the absentee ballot] shall be
mailed by the elector, or delivered in person, to the
municipal clerk issuing the ballot or ballots.” Wis.
Stat. § 6.87(4)(b)1; see Olson v. Lindberg, 85 N.W.2d
775, 781 (Wis. 1957) (failure to properly deliver ballots rendered them uncounted). As explained below,
the Legislature specified these two methods of returning absentee ballots to create a clear of chain of
custody and to reduce opportunities for voter coercion
and fraud.
Although the Legislature prescribed a process for
establishing alternate absentee voting sites, election
officials implemented drop boxes without following
these procedures and without addressing other fundamental aspects of the voting process under Wisconsin law, which include requirements for bipartisan
oversight, 17 public notice 18 and public access. 19 A fedSee, e.g., Wis. Stat. §§ 6.855(1), 6.875(4)(a), 6.875(7),
6.88(3)(b), 7.15(1)(k), 7.20(2), 7.30(2), 7.41(4).
17

12

eral fact sheet on which WEC’s guidance was based
likewise recommends “bipartisan teams to be at every
ballot drop-off location precisely when polls close,” 20
but WEC deleted this recommendation from its guidance. 21 Thus, drop boxes in the 2020 Presidential
election collided with the Legislature’s starting point
for absentee balloting in Wisconsin, that it “must be
carefully regulated to prevent the potential for fraud
or abuse.” Wis. Stat. § 6.84(1).
The WEC’s guidance contained no standards for
local election officials, such as ballot chain of custody
and openness to the public. 22 Nor did WEC attempt to
“[p]romulgate rules...applicable to all jurisdictions for
the purpose of interpreting or implementing the laws
regulating the conduct of elections” relating to drop
boxes. Wis. Stat. § 5.05(1)(f).
5. The Massive Illegal Use of Unmanned Drop Boxes
Over 500 unmanned, absentee ballot drop boxes
were used haphazardly across Wisconsin in the 2020
presidential election. (7th Cir. App. B032 ¶ 28.). For
example, the City of Oshkosh implemented a “drop
box” with a sign that it was “for tax bills, water bills,
parking tickets, and absentee ballots.” (7th Cir. App.
B108.) Such multi-use slots were employed through18

See, e.g., Wis. Stat. §§ 6.875(4)(a), 7.41, 7.515(3)(a).

19

Id.

20

ECF 117-15, p. 5.

21

ECF 117-13.

22

See, e.g., Wis. Stat. §§ 6.855, 6.86, 6.87, 6.875, 6.88.

13

out the State and particularly in locations that did
not receive the early CTCL funding. 23
Likewise, in many locations library book returns
doubled as absentee ballot drop boxes. 24 Implementation of multi-use collection facilities gave non-election
workers in libraries and other government offices direct access to ballots. The unmanned drop boxes
opened absentee balloting up to the very concerns
about fraud and abuse the Legislature identified, including the illicit practice of ballot harvesting and a
greater potential for “overzealous solicitation of absent electors who may prefer not to participate in an
election” as well as the possibility of “undue influence
on an absent elector…or…similar abuses.” Wis. Stat.
§ 6.84(1). Unmanned ballot drop boxes are more vulnerable to all such concerns.
The WEC did not require records be kept concerning how many ballots flowed through drop boxes.
However, the heavily Democrat Cities of Madison collected at least 9,346, and Milwaukee approximately
65,000–75,000, absentee ballots from unmanned drop
boxes for the November election. (7th Cir. App. B028B029 ¶¶ 12–14.). Thus, absentee ballot drop boxes
were a significant factor in the Wisconsin Presidential election affecting far more ballots than the margin between the candidates.

ECF Nos. 117-18, -19, -20, -21, -22, -23, -48, -71, p. 37
(Repurposing Options).
23

24

ECF 18.

14

6. The Illegal “Human Drop Boxes”
Another problem created by WEC’s drop box program was the so-called “Democracy in the Park”
events held by the City of Madison on September 26
and October 3, well outside the two-week period before Election Day when in-person absentee voting is
permitted by Wis. Stat. § 6.86(1)(b). 25 These events,
primarily involved election day poll workers (not
clerk’s office employees) being paid to collect absentee
ballots at 206 city parks in Madison, and were justified through the fiction that poll workers collecting
the ballots (while clearly not promptly placing them
in the carrier envelopes provided for in Wis. Stat. §
6.88(1), as video from the event shows 26) were allegedly “human drop boxes.” 27 A total of 17,271 absentee
ballots were collected in this non-statutory manner. 28
7. Potential for Partisan Advantage
As the Legislature did not direct an orderly rollout of absentee ballot drop boxes, and the largest cities in the State got a substantial head start, there
was significant potential to use this new voting
method for partisan advantage in Democrat areas, to
the detriment of Republican areas of the State that
may not have been adequately funded or alerted as
early to the new vote casting method.

25

ECF 117-71, p. 103.

26

ECF 117-55.

27

ECF 127, p. 5, ¶ 16.

28

ECF 127, p. 5, ¶ 15.

15

The “human drop box” events in Madison also illustrate the risk that newly introduced voting methods not sanctioned by the Legislature can be turned
for partisan ends. Public service announcements for
these events, which were proudly “created by,
planned by, staffed by and paid for by the
@CityofMadison Clerk’s Office,” 29 were paid for by the
Biden for President Campaign and included Vice
President Biden’s voice and tag line. 30
B. Alteration of Absentee Ballot Witness
Certificates
There are two widely used methods which seek to
prevent absentee ballot fraud. Some states use signature verification, matching the signature of the voter
on the outside of the ballot envelope against the voter’s signature on file. The other method, used by Wisconsin, requires a witness to verify on the ballot envelope that they witnessed the absentee voter complete
the ballot and that the voter is who they say they are.
1. Wisconsin Law Mandates That An
Incomplete Witness Certificate Address Invalidates the Absentee Ballot
In 2015, the Wisconsin Legislature passed a law
requiring “[i]f a certificate is missing the address of a
witness, the ballot may not be counted.” Wis. Stat. §
6.87(6d).

29

ECF 117-49.

30

ECF 117-64.

16

2. WEC Instructed Clerks to Illegally
Tamper with Witness Certificates
Just three weeks before the 2016 election, WEC
issued new guidance relating to this statute, stating:
The WEC has determined that clerks
must take corrective actions in an attempt to remedy a witness address error. If clerks are reasonably able to discern any missing information from outside sources, clerks are not required to
contact the voter before making that correction directly to the absentee certificate envelope.
(7th Cir. App. B052) (first emphasis in original, second emphasis added). WEC issued this guidance despite “concern some clerks have expressed about altering information on the certificate envelope, especially in the case of a recount.” (B053.) WEC summed
up its guidance, stating “municipal clerks shall do all
that they can reasonably do to obtain any missing
part of the witness address,” including supplying information based on the clerk’s own personal
knowledge or extraneous research. (B053.)
3. The Seventh Circuit and Supreme
Court Decisions Regarding Absentee
Ballot Witnessing and Ballot Counting Deadline
In late March 2020, before Governor Evers’ own
unilateral effort to suspend the witness requirement
by Executive Order, the Democratic National Committee and Democratic Party of Wisconsin sought to
enjoin enforcement of the witness requirement for
17

absentee voting. Democratic Nat’l Comm. v. Bostelmann, 451 F. Supp. 3d 952, 958 (W.D.Wis. 2020).
On April 2, 2020, the district court in Bostelmann
enjoined WEC from enforcing the statutory requirement for an absentee ballot to be witnessed, provided
the voter signed a written statement that they could
not safely obtain a witness despite reasonable efforts
to do so. Id. at 983. The very next day, the Seventh
Circuit stayed that part of the injunction, expressing
“concern[s] with the overbreadth of the district court’s
order, which categorically eliminates the witness requirement applicable to absentee ballots and gives no
effect to the state’s substantial interest in combatting
voter fraud.” Democratic Nat’l Comm. v. Bostelmann,
2020 WL 3619499, *2 (7th Cir. Apr. 3, 2020).
The Seventh Circuit did not stay part of the district court’s order allowing ballots to be mailed and
postmarked after Election Day. On April 6, 2020, this
Court stayed that additional “unusual” aspect of the
district court injunction. Republican Nat’l Comm. v.
Democratic Nat’l Comm., 140 S. Ct. 1205, 1207 (2020)
(“DNC I”).
4. WEC Withdraws First Instruction to
Tamper with Witness Certificates
In light of the Seventh Circuit’s decision, on April
5, WEC issued new guidance, retreating from its October 2016 instruction for clerks to fill in missing
witness information. (7th Cir. App. B060 (see header
on B061 identifying guidance as “Post Appeals Court
Decision Absentee Signature Requirement”).)

18

5. WEC Issues New Illegal Instruction
to Clerks to Tamper with Witness
Certificates
However, on October 19, 2020, just two weeks before the Presidential election, the WEC issued new
guidance stating:
Please note that the clerk should attempt to resolve any missing witness
address information prior to Election
Day if possible, and this can be done
through…personal knowledge [or]
voter registration information. The witness does not need to appear to add a
missing address
(7th Cir. App. B085, emphases added.)
Consequently, in the November 2020 Wisconsin
election, election workers added information to witness addresses on envelopes for an unspecified number of absentee ballots, and these ballots were counted as valid votes. (7th Cir. App. B029 ¶ 17.) At Milwaukee Central Count on Election Day, Respondent
Woodall-Vogg announced that ballot counters who
happened on a ballot without a witness address could
go to a computer, look up the address and insert it on
the ballot. (B037-B038 ¶ 11.)
C. Violating Photo ID Law Through Purposeful Non-Enforcement of the “Indefinitely Confined” Exception
In 2014 the Legislature added a requirement an
“elector” present one of ten acceptable forms of photo
identification to vote. Wis. Stat. § 5.02(6m) (a)–(g).
Exempt from the photo ID requirement are those “in19

definitely confined” or “disabled for an indefinite period”) due to one or more of four (4) limiting physical
conditions: age, physical illness, infirmity or disability. Notably absent is a fear of illness or infirmity.
An indefinitely confined voter may vote absentee
if “in lieu of providing proof of identification, [the voter] submit[s] with his or her absentee ballot a statement signed by the same individual who witnesses
voting of the ballot which contains the name of the
elector and verifies that the name and address are
correct.” Wis. Stat. § 6.87(4)(b)2. Once a voter qualifies for indefinitely confined status they will generally no longer have to present photo identification to
vote absentee.
1. Illegal Social Media Posts from Dane
and Milwaukee Clerks
On March 25, 2020, the Dane and Milwaukee
County Clerks issued social media statements that
any voter who wished to circumvent the photo ID requirements of Wisconsin law should apply for an absentee ballot claiming indefinite confinement. Two
days later the Wisconsin Republican Party filed an
original action with the Wisconsin Supreme Court
seeking clarification regarding the indefinitely confined exception.
2. WEC’s Illegal Guidance Guts Enforcement of Indefinitely Confined
Rules
On March 29, 2020, WEC issued guidance noting
that “indefinitely confined” status should not be used
solely to avoid Photo ID requirements but also purporting to limit the authority of clerks to inquire
20

about the basis for a voter’s claim to be indefinitely
confined, saying:
Statutes do not establish the option to
require proof or documentation from indefinitely confined voters. Clerks may
tactfully verify with voters that the voter understood the indefinitely confined
status designation when they submitted
their request but they may not request or
require proof.
(7th Cir. App. B054). WEC contended clerks could only passively receive evidence relating to indefinite
confinement but were barred from actively seeking
such proof.
WEC’s guidance is inconsistent with Wis. Stat. §
6.86(2)(b) which provides:
The clerk shall remove the name of any
other elector from the list upon request
of the elector or upon receipt of reliable
information that an elector no longer
qualifies of the service. The clerk shall
notify the elector of such action not taken at the elector’s request within 5 days,
if possible.
A clerk’s duty to remove individuals from the indefinitely confined list is mandatory upon receipt of
reliable information the voter no longer qualifies.
Removing an elector from the list can be undertaken
unilaterally, subject to notice within five days after
removal. There is no requirement a clerk only receive
such information passively as erroneously claimed by
WEC.
21

3. Wisconsin Supreme Court’s Failure
to Promptly Rule Locks WEC’s Illegal Guidance In Place
On March 31, 2020, the Wisconsin Supreme Court
reprimanded the Dane County Clerk for his recommendation about circumventing Wisconsin’s Photo ID
law and ordered him to comply with two paragraphs
of the WEC’s March 29 guidance not set forth above.
The court did not reference the above paragraph in
WEC’s guidance regarding investigating voters claiming to be indefinitely confined and retained jurisdiction to consider other issues related to “indefinitely
confined” status. Despite the importance of these issues to the 2020 election, the Wisconsin Supreme
Court allowed the case to linger, only issuing a decision on December 14, 2020. Jefferson v. Dane County,
2020 WL 7329433 (Wis. Dec. 14, 2020). As a consequence, the WEC’s erroneous advice to clerks was insulated from review for a nine-month period during
2020.
Predictably, the number of voters who claimed indefinitely confined status and avoided the photo identification requirements of the law ballooned following
the guidance restricting clerks from exercising their
statutory authority to oversee compliance with the
law. While approximately 66,611 voters took advantage of indefinitely confined status in 2016, that
number increased to some 240,000 voters in 2020.
(7th Cir. App. B029, ¶¶ 18-19). 31
The foregoing highlights ways WEC’s infidelity to the
Wisconsin Election Code impacted the Presidential election in Wisconsin. There are more examples. For instance,
31

22

III. The Decisions Below
A. District Court
The Petitioner invoked the district court’s federal
question jurisdiction by raising claims arising under
Art. II, § 1, cl. 2 of the United States Constitution and
the Equal Protection Clause. ECF 1 (Complaint). The
district court held an expedited bench trial on December 10, 2020, and entered judgment for Respondents two days later. Trump v. Wisconsin Elections
Comm’n, 2020 WL 7318940 (E.D.Wis. Dec. 12, 2020).
On threshold issues, the district court held the President had standing and his claims were not moot and
were not barred by the 11th Amendment. While the
court noted concern with bringing these challenges
post-election, it expressly declined to apply the doctrine of laches. Id. Pet.App. 45a n.10.
On the merits, the district court based its decision
on two alternative holdings. First, the court narrowly
construed the term “manner” in the Electors Clause
as limiting the choice of state legislatures either to
appoint electors directly or to submit it for a popular
vote, but the term does not include “the administration of the election.” Pet.App. 41a. Since Wisconsin

in September Wisconsin Supreme Court Justice Bradley
chastised WEC for its “tactic[al]” maneuver that excluded
the Green Party candidates for President and Vice President from the November ballot. Hawkins v. Wisconsin
Elections Comm’n, 948 N.W.2d 877, 884-897 (Wis. 2020)
(Bradley, J., dissenting). Based on the 2016 election results, this maneuver likely resulted in a 30,000 vote swing
to Democrat candidate Biden.

23

chose electors by general ballot, there was no violation of the Electors Clause, the court held.
Second, under an alternatively broad construction
of “manner,” the court held WEC was a statutory
creature of the Legislature’s own making, authorized
to administer the election and issue guidance; thus,
the court reasoned, WEC could not violate the Legislature’s directed “manner” of conducting the election.
Pet.App. 43a-44a.
B. Seventh Circuit
Although the district court expressly declined to
apply the doctrine of laches, the Seventh Circuit affirmed primarily on untimeliness grounds, whether
labeled as “laches” or some other doctrine:
The President had a full opportunity before the election to press the very challenges to Wisconsin law underlying his
present claims. Having foregone that
opportunity, he cannot now—after the
election results have been certified as final—seek to bring those challenges.
(Pet.App. 8a-9a.)
The Seventh Circuit then addressed the merits
but failed to reverse the district court’s holding that
“Manner” as used in the Electors Clause limits the
legislature’s choice either to appoint electors directly
or to submit to a popular vote. Instead, the Seventh
Circuit said:
[b]y its terms, the [Electors] Clause
could be read as addressing only the
manner of appointing electors [i.e.,
24

whether they are selected by popular
vote or not] and thus nothing about the
law that governs the administration of
an election…. On this reading of the
Electors Clause, the President has failed
to state a claim.
(Pet.App. 9a–10a.)
Without fully endorsing or rejecting that reasoning, the court merely noted that “perhaps” the better
construction of “Manner” includes the conduct of the
election. (Pet.App. 10a.) The Seventh Circuit then determined that in the context of a Presidential election
questions pertaining to administration of the election
are “matters of state law [that]…belong…in the state
courts. (Pet.App. 11a.) In this regard, the Seventh
Circuit adopted the district court’s reasoning that, as
a creature of the Legislature, WEC could not deviate
from the Legislature’s directions, because “whatever
actions the Commission took here, it took under color
of authority expressly granted to it by the Legislature.” (Pet.App. 11a.)
REASONS FOR GRANTING THE WRIT
This Court should address the Seventh Circuit’s
departure from Article II precedents and affirm that,
no less than the Florida Supreme Court in Bush v.
Gore, non-legislative executive branch and administrative officials, such as the WEC and local election
administrators, must defer to the state legislature’s
rules for a Presidential election.
First, Petitioner has demonstrated that failure of
state officials to respect the lines drawn by Article II
resulted in large numbers of invalid ballots being un25

lawfully counted which far exceeded the margin of
victory between the candidates. It is not possible to
determine who received the most lawful votes.
Second, Petitioner is entitled to a declaration the
Wisconsin Presidential election was unconstitutional
and is void. Under Article II and pursuant to 3 U.S.C.
§ 2, this relief will permit the Legislature to choose
electors by a different means.
Finally, this Court should further clarify that
laches is not available to bar an Article II claim, particularly where bringing suit before the election
would create the sort of disruption discussed in Purcell v. Gonzalez, 549 U.S. 1 (2006).
Wisconsin represented one among serial efforts
around the country to usurp legislative authority and
unlawfully change election laws for partisan advantage in the lead up to the Presidential election.
These unconstitutional efforts have provoked growing
skepticism and concern which if left unaddressed will
only ripen into cynicism and disillusionment.
I.

The Lower Courts’ Decisions Allow the
Wisconsin Executive Branches to Violate
the Electors Clause in Conflict with this
Court’s Decisions

As Justice Gorsuch recently explained, “[i]t does
damage to faith in the written Constitution as law, to
the power of the people to oversee their own government, and to the authority of legislatures” to usurp
the legislature’s role in setting the rules for an election. DNC II, 141 S.Ct. at 30 (concurring in denial of
application to vacate stay). This is as true for bureaucratic or executive branch overreach as for judicial
26

overreach. “No one doubts that conducting a national
election amid a pandemic pose[d] serious challenges.
But none of that means [unelected administrators
could] improvise with their own election rules in
place of those the people’s representatives have
adopted.” Id.
A voter’s right in a Presidential election is “the
right to vote as the legislature has prescribed.” Bush
v. Gore, 531 U.S. at 104 (emphasis added). There is
no free standing, untethered right to vote in a manner inconsistent with Article II or other provisions of
the Constitution.
Public opinion polls suggest a significant percentage lack faith in the outcome of the most recent election. As Justice Gorsuch presciently observed preelection, this could certainly be the result of widespread understanding that the rules of the election
were undermined at the last minute in ways that cast
doubt upon its legitimacy. DNC II, 141 S.Ct. at 30
(“Last-minute changes to longstanding election rules
risk other problems too, inviting confusion and chaos
and eroding public confidence in electoral outcomes.”).
Judicial intervention is necessary when Constitutional lines have been transgressed in a presidential
election. Such intervention does not undermine constitutional democracy, it preserves it.
A. Wisconsin Election Officials Violated
Article II
One of the two questions presented in Bush v.
Gore was “whether the Florida Supreme Court established new standards for resolving Presidential elec27

tion contests, thereby violating Art. II, § 1, cl. 2, of
the United States Constitution.” Bush v. Gore, 531
U.S at 103. While the majority decided the case on
Equal Protection grounds, three justices 32 joined the
concurring opinion by Chief Justice Rehnquist and
answered the foregoing question in the affirmative,
reasoning that “[a] significant departure from the legislative scheme for appointing Presidential electors
presents a federal constitutional question.” Id. at 113.
None of the Justices in Bush v. Gore appeared to take
issue with the basic principle that Article II requires
non-legislative state actors to comply with the legislative scheme for appointing Presidential electors.
The logical force of this interpretation of Article II
has led to cases recognizing Article II as a bulwark
against intrusion upon the state legislature’s authority to set the rules for Presidential elections. See, e.g.,
Republican Party v. Boockvar, 141 S. Ct. 1, 2 (2020)
(Statement of Alito, J., joined by Thomas and Gorsuch, JJ.) (“[T]he constitutionality of the [Pennsylvania] Supreme Court’s decision [extending the statutory date for receipt of mail-in ballots beyond Election
Day]…has national importance, and there is a strong
likelihood that the State Supreme Court decision violates the Federal Constitution.”); Carson, 978 F.3d at
1059–1060 (“Secretary’s actions in altering the deadline for mail-in ballots likely violates the Electors
Clause…it is not the province of a state executive official to re-write the state’s election code”); Democracy
N. Carolina, 2020 WL 6589362, *2 (“[T]his court intends to address whether the North Carolina State
32

Justices Scalia and Thomas joined the Chief Justice.

28

Board of Elections…has … unconstitutionally modified the North Carolina legislative scheme for appointing Presidential electors”); Baldwin v. Cortes,
2008 WL 4279874, *4 (M.D.Pa. Sept. 12, 2008), aff’d,
378 F. App'x 135 (3d Cir. 2010) (“At trial on the merits, Plaintiffs may establish that the August 1 date
fundamentally impairs or changes the order of elections and access to the ballot so as to undermine a
carefully crafted legislative scheme.”); Libertarian
Party of Ohio v. Brunner, 567 F. Supp. 2d 1006, 1012
(S.D.Ohio 2008) (“the Directive issued by the Secretary of State…establishes a new structure for minor
party ballot access, a structure not approved by the
Ohio legislature”).
1. The Legislature Did Not Authorize
Drop Boxes
“[D]rop boxes are not found anywhere in the absentee voting statutes [and] are nothing more than
another creation of WEC to get around the requirements of Wis. Stat. § 6.87(4)(b)1.” Trump v. Biden,
2020 WL 7331907, *20 (Roggensack, C.J, dissenting).
That’s because the Wisconsin Election Code provides
no options for returning an absentee ballot other than
by mail or “deliver[y] in person, to the municipal clerk
issuing the ballot or ballots.” Wis. Stat. § 6.87(4)(b)1
(emphasis added). Delivery in one of these two manners is mandatory and non-compliance means the absentee ballot “may not be counted.” Wis. Stat. §
6.84(2) (emphasis added). This process ensures the
security of ballot delivery and provides for a clear
chain of custody.
First, upon receipt of an absentee ballot a clerk
has two options. “If a municipal clerk receives an ab29

sentee ballot with an improperly completed certificate
or with no certificate, the clerk may return the ballot
to the elector” if there is sufficient time for the elector
to correct the defect and return the ballot before 8
p.m. on election day.” Wis. Stat. § 6.87(9). If the clerk
does not return the absentee ballot for correction of
the certificate(s) by the voter, “the clerk shall enclose
it, unopened, in a carrier envelope which shall be securely sealed and endorsed with the name and official
title of the clerk, and the words “This envelope contains the ballot of an absent elector and must be
opened in the same room where votes are being cast
at the polls during polling hours on election day or, in
municipalities where absentee ballots are canvassed
under s. 7.52, stats., at a meeting of the municipal
board of absentee ballot canvassers under s. 7.52,
stats.” Wis. Stat. § 6.88(1) (emphasis added).
Second, the formality of the statutory absentee
ballot receipt and securing process to occur in the
clerk’s office or at an alternate absentee ballot site is
striking, making clear the Legislature intended that
absentee ballots, whether mailed or delivered in person, be received in a brick-and-mortar office, staffed
by trained employees who immediately place ballots
in a “securely sealed” “carrier envelope” to be further
“endorsed with the name and official title of the
clerk” and a statement that the envelope will only be
opened at the place where votes are counted on election day.
The Legislature has provided only a single means
of establishing a site for collecting absentee ballots
outside the Clerk’s office, and it requires a fully
staffed brick-and-mortar location approved by the
30

governing body of the municipality. Such an alternate
absentee ballot site “shall be staffed by the municipal clerk or the executive director of the board of election commissioners, or employees of the clerk or the
board of election commissioners.” Wis. Stat. § 6.855(3)
(emphasis added). Moreover, an alternate site “shall
be located as near as practicable to the office of the
municipal clerk or board of election commissioners,”
and “no site may be designated that affords an advantage to any political party.” Wis. Stat. § 6.855(1).
Likewise, Wis. Stat. § 7.15(2m) provides, “[i]n a municipality in which the governing body has elected to
an establish an alternate absentee ballot site under s.
6.855, the municipal clerk shall operate such
site as though it were his or her office for absentee ballot purposes and shall ensure that such site is
adequately staffed.” (Emphasis added).
Third, not only does the Election Code make clear
that unmanned absentee ballot drop boxes are not
authorized, the Legislature’s explicit rejection of the
Governor’s effort in April to impose drop boxes makes
this doubly clear. If the Governor believed drop boxes
were permitted under the Election Code, there would
have been no reason to include them in his April 3,
2020, Executive Order. Therefore, it is clear that
WEC’s drop box guidance was ultra vires and a significant departure from the legislative scheme for absentee balloting, “thereby violating Art. II, § 1, cl. 2,
of the United States Constitution.” Bush v. Gore, 531
U.S at 103.
Finally, just as unmanned absentee ballot drop
boxes violate the Election Code, so too did the socalled “human drop boxes” used by the Madison Clerk
31

to harvest over 17,000 ballots well in advance of the
start date for in-office absentee voting. See Wis. Stat.
§ 6.86(1)(b); ECF 117-71, p. 103 (in-office voting guidance).
2. The Legislature Did Not Authorize
Clerks to Alter Witness Certificates
WEC’s election eve instruction to alter or add addresses on witness certificates was another serious
departure from the Legislature’s plan to protect
against absentee ballot fraud. The intent to protect
the integrity of absentee voting is why a witness certificate must be completed “subject to the penalties of
s. 12.60(1)(b), Wis. Stats., for false statements.” Wis.
Stat. § 6.87(2).
The certificate is part of the evidentiary basis for a
poll inspector’s decision whether to allow a ballot envelope to be opened so that the absentee ballot can be
counted. Wis. Stat. § 6.88(3)(a). An absentee ballot
may be opened only if “the inspectors find that the
certification has been properly executed.” Id.
“When…inspectors find…a certification is insufficient…the inspectors shall not count the ballot.” Wis.
Stat. § 6.88(3)(b). In fact, the only time the Election
Code authorizes an election worker to write on an absentee ballot envelope is when the ballot is not counted. Id. Only after that determination, “[t]he inspectors shall endorse [the] ballot not counted on the
back, ‘rejected (giving the reason)’.” Id. Only uncounted envelopes are to be written on, and even then
only “on the back,” never on the witness certificate itself.
32

These statutes confirm the witness certificate is a
key link in the evidentiary chain designed by the Legislature to protect the integrity of absentee balloting.
That is why Wis. Stat. § 6.87(6d) states unequivocally, “[i]f a certificate is missing the address of a witness, the ballot may not be counted.” Wis. Stat. §
6.84(2) underscores the Legislature’s unambiguous
message that alteration of a witness certificate is forbidden. A ballot missing the address of a witness
“may not be included in the certified result of any
election.” Wis. Stat. § 6.84(2).
WEC’s instructions to alter witness addresses and
count ballots in the recount where election workers
had added witness addresses were significant departures from the legislative directive for protecting the
integrity of absentee balloting.
3. WEC’s “Indefinitely Confined” Instruction
As explained above, WEC’s indefinitely confined
guidance interfered with clerks performing their
statutorily assigned duty to supervise the list of indefinitely confined voters and remove voters who did
not qualify. This also was a significant departure
from the Legislature’s plan to protect the integrity of
absentee balloting.
B. The Seventh Circuit’s “Manner” and
“Mode” Distinction Contravenes Article
II, Bush v. Palm Beach Cty., and Bush v.
Gore
The Seventh Circuit allowed the district court’s
narrow construction of “manner” to stand, creating a
direct conflict with this Court’s prior decisions in
33

Bush v. Palm Beach Cty., 531 U.S at 76 and Bush v.
Gore, 531 U.S. at 104, 113, and with the Eighth Circuit’s recent decision in Carson, 978 F.3d at 1060-62,
all of which recognize the Electors Clause is not confined to whether a State selects electors by popular
vote. Bush v. Gore obviously did not deal with who selected electors, but how they were selected.
C. Contrary to the Seventh Circuit, Federal Courts Have the Power to Independently Interpret State Election Law
in the Context of Presidential Elections
The Seventh Circuit also determined that in the
context of a Presidential election questions pertaining
to administration of the election are “matters of state
law [that]…belong…in the state courts.” Trump v.
WEC, Pet.App. 11a. This holding also conflicts with
both Bush cases. For instance, in Bush v. Palm Beach
Cty., 531 U.S at 76, this Court observed that:
in the case of a law enacted by a state
legislature applicable not only to elections to state offices, but also to the selection of Presidential electors, the legislature is not acting solely under the authority given it by the people of the
State, but by virtue of a direct grant of
authority made under Art. II, § I, cl. 2, of
the United States Constitution.
Given that laws enacted by the Legislature and
applicable to a Presidential election are adopted via
authority conferred by the Constitution, those laws
are subject to interpretation by federal courts. As
Chief Justice Rehnquist observed, by virtue of the
34

Electors Clause “the text of the election law itself, and
not just its interpretation by the courts of the States,
takes on independent significance.” Bush v. Gore, 531
U.S. at 113.
If not reversed, these erroneous holdings of the
Seventh Circuit would sap all vitality from the Electors Clause.
II.

Wisconsin Violated Equal Protection
Through the Standardless Implementation
of Absentee Ballot Drop Boxes Without
Meaningful Protections Against Vote Dilution and Fraud

The requirement that a state “grant[ ] the right to
vote on equal terms,” Bush v. Gore, 531 U.S. at 104,
includes protecting the public “from the diluting effect of illegal ballots.” Gray v. Sanders, 372 U.S. 368,
380 (1963). The State must employ “minimum procedures” to “protect the fundamental right[s] of each
voter” and those procedures should be “calculated to
sustain the confidence that all citizens must have in
the outcome of elections.” Bush v. Gore, 531 U.S. at
109. This requires establishing “necessary safeguards.” Id.
Here, when WEC unilaterally adopted a new
method of collecting absentee ballots which the Legislature has warned are particularly susceptible to
fraud, no necessary safeguards were established. Implementing absentee ballot drop boxes without adopting any uniform standards and safeguards to protect
the security of the ballot and prevent vote dilution violates Equal Protection.
35

Furthermore, as the district court found in Moore,
a “state cannot uphold its obligation to ensure equal
treatment” if the state’s election administrator “is
permitted to contravene the duly enacted laws of the
[Legislature] and to permit ballots to be counted that
do not satisfy the fixed rules or procedures the state
legislature has deemed necessary to prevent illegal
voting.” Moore, *17. In this way as well, failure to follow the Legislature’s instructions violated Equal Protection.
III. The Seventh Circuit’s Laches Decision
Contravenes Article II and Purcell v. Gonzalez
Laches should not bar review in a case founded
upon Article II, let alone on the facts of this case.
Laches is a judge-made, equitable doctrine that
should not control when important public rights are
at stake. It is not just Petitioner who has an interest
in the Constitution being upheld. A constitutional
outcome in this case is in the interest of every American. The application of laches also places an intolerable burden upon exercise of the First Amendment
right to run for public office. See Arizona Free Enterprise Club’s Freedom Club Pac v. Bennett, 564 U.S.
721, 735-40 (2011); Randall v. Sorrell, 548 U.S. 230,
261-63 (2006).
First, by invoking laches after the district court
expressly declined, the Seventh Circuit disregarded
long-standing, uniform precedent within the Circuit,
and the practice in many other Appellate Courts. In
the Seventh Circuit, “a decision on laches rests within the sound discretion of the trial judge.” Lingenfelter v. Keystone Consol. Indus., Inc., 691 F.2d 339,
36

341 (7th Cir. 1982). It had been the rule that the Seventh Circuit “will not disturb [the trial court’s findings on laches] on appeal ‘unless it is so clearly wrong
as to amount to an abuse of discretion.’” Id. Application of laches in this case was also inconsistent with
this Court’s general approach to “caution[] against
invoking laches to bar legal relief.” Petrella v. Metro
Goldwyn-Mayer, Inc., 572 U.S. 663, 678 (2014).
Second, the Seventh Circuit applied laches not
recognizing that several of Petitioner’s claims (most
notably those concerning WEC’s October 19 change in
guidance on absentee witness certifications and August 19 guidance on absentee ballot drop boxes) either arose after absentee balloting began, or so close
to the September 17 date when it began, it was not
reasonable to expect Petitioner could have initiated a
lawsuit and obtained relief prior to September 17.
Third, under Purcell v. Gonzalez, 549 U.S. 1
(2006), as previously applied in the Seventh Circuit, a
lawsuit after September 17 would have almost certainly been dismissed as too disruptive of an election
already in progress. See, e.g., Democratic Nat’l
Comm. v. Bostelmann, 977 F.3d 639, 641 (7th Cir.
2020) (district court’s September 21 order stayed on
October 8); Tully v. Okeson, 977 F.3d 608, 612 (7th
Cir. 2020) (“Given that voting is already underway in
Indiana, we have crossed Purcell’s warning threshold
and are wary of turning the State in a new direction
at this late stage.”); see also Andino v. Middleton, 141
S.Ct. 9, 10 (2020) (Kavanaugh, J., concurring in grant
of stay) (“By enjoining South Carolina’s witness requirement shortly before the election, the District
Court defied [the Purcell] principle.”); DNC II, 141 S.
37

Ct. at 30 (Kavanaugh, J., concurring in denial of application to vacate stay) (“This Court has repeatedly
emphasized that federal courts ordinarily should not
alter state election laws in the period close to an election—a principle often referred to as the Purcell principle.”).
Fourth, the Seventh Circuit’s decision on laches
leaves the Electors Clause without teeth. It will mean
unconstitutional changes to election processes implemented near the start of absentee balloting will
not be subject to federal court review. Challenges
brought before the election would be barred by Purcell and challenges brought after will be barred by
the Seventh Circuit’s new laches rule. This puts candidates in an untenable position.
For example, although WEC issued its drop box
guidance on August 19, Petitioner could not have reasonably anticipated that by Election Day, just twoand-a-half months later, more than 500 drop boxes
would spring up. Indeed, drop boxes were only installed in Madison on October 16, and Milwaukee
adopted new boxes on October 27.
Further, Petitioner could not have reasonably
been expected to foresee prior to September 17 that
the nascent drop box concept would be used to justify
“human drop boxes” or depositing absentee ballots in
multi-use utility bill payment slots or library book returns, and involve ballots being handled by numerous
individuals outside elections clerk offices without any
safeguards or procedures to protect the security of the
ballots.

38

Finally, the Seventh Circuit’s application of laches
also creates a perverse “protection zone” for sinister
partisans to exploit by introducing unconstitutional
election practices when it is too late under Purcell to
prevent them from impacting an upcoming election
but leaves candidates and voters without a remedy
after-the-fact. Nor is laches a satisfying reason for
decision in a case of this magnitude and involving
public rights. Public faith in the robustness of the judicial process is not enhanced through application of
a discretionary doctrine allowing a decision on the
merits to be side-stepped.
For all these reasons, the Seventh Circuit’s decision is a significant departure from existing law
which could create havoc in future Presidential elections by insulating from review actions of nonlegislative state actors who seek to thwart or undermine the Legislature’s direction regarding administration of the election.
IV. This Court Should Hold the Wisconsin
Election Void and the Legislature May Appoint Electors Under 3 U.S.C. § 2 and Article II
Petitioner has stated a cognizable claim for relief
under Article II as Bush v. Gore and the Eighth Circuit’s decision in Carson confirm. The Seventh Circuit
recognized as much, stating
the President’s complaint can be read
as…requesting a declaration that the defendants’ actions violated the Electors
Clause and that those violations tainted
enough ballots to “void” the election.
39

Were we to grant the President the relief
he requests and declare the election results void, the alleged injury—the unlawful appointment of electors—would
be redressed. True, our declaration
would not result in a new slate of electors. But the fact that a judicial order
cannot provide the full extent or exact
type of relief a plaintiff might desire
does not render the entire case nonjusticiable. See Church of Scientology v.
United States, 506 U.S. 9, 12–13 (1992).
A favorable ruling would provide the opportunity for the appointment of a new
slate of electors. From there, it would be
for the Wisconsin Legislature to decide
the next steps in advance of Congress’s
count of the Electoral College’s votes on
January 6, 2021. See 3 U.S.C. § 15.
Trump v. WEC, Pet.App. 6a.
Petitioner seeks a declaratory judgment that the
election was not conducted in accordance with the
Constitution and is therefore void. Following a declaration that the November 3, 2020 election was invalid, Wisconsin is not left without any electoral votes.
Federal law contains a savings provision permitting a
state legislature to appoint electors in the event its
state fails to make an election (or when the election
was unconstitutional and void):
Whenever any State has held an election
for the purpose of choosing electors, and
has failed to make a choice on the day
prescribed by law, the electors may be
40

appointed on a subsequent day in such a
manner as the legislature of such State
may direct.
3 U.S.C. § 2.
Petitioner seeks a remedy specifically authorized
by 3 U.S.C. § 2 and Article II of the United States
Constitution. Federal courts have intervened in state
electoral processes to ensure that constitutional
standards are met. See, e.g., Baker v. Carr, 369 U.S.
186, 197 (1962); Reynolds v. Sims, 377 U.S. 533, 554
(1964); Bush v. Gore, 531 U.S. at 111. There is ample
historic endorsement for the principle that judicial
intervention to maintain constitutional boundaries is
healthy for democracy, not antithetical to it.
CONCLUSION
The petition for certiorari should be granted.

41

Respectfully submitted,
WILLIAM BOCK, III
Counsel of Record
Kroger, Gardis & Regas, LLP
111 Monument Circle
Suite 900
Indianapolis, IN 46204
(317) 692-9000
wbock@kgrlaw.com

JAMES A. KNAUER
KEVIN D. KOONS
Kroger, Gardis & Regas,
LLP
111 Monument Circle
Suite 900
Indianapolis, IN 46204
(317) 692-9000

Counsel for Petitioner
DECEMBER 2020

42

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
————
No. 20-3414
————
DONALD J. TRUMP,
Plaintiff-Appellant,
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants-Appellees.
————
Appeal from the United States District Court for the
Eastern District of Wisconsin.
No. 2:20-cv-1785 — Brett H. Ludwig, Judge.
————
SUBMITTED DECEMBER 21, 2020* –
DECIDED DECEMBER 24, 2020
————
Before FLAUM, ROVNER, and SCUDDER, Circuit
Judges.
SCUDDER, Circuit Judge. Two days after Wisconsin
certified the results of its 2020 election, President
Donald J. Trump invoked the Electors Clause of the
U.S. Constitution and sued the Wisconsin Elections
*

We have agreed to decide this case without oral argument
because the briefs and record adequately present the facts and
legal arguments, and oral argument would not significantly aid
the court. FED. R. APP. P. 34(a)(2)(C).

2a
Commission, Governor, Secretary of State, and several
local officials in federal court. The district court concluded that the President’s challenges lacked merit, as
he objected only to the administration of the election,
yet the Electors Clause, by its terms, addresses the
authority of the State’s Legislature to prescribe the
manner of appointing its presidential electors. So, too,
did the district court conclude that the President’s
claims would fail even under a broader, alternative
reading of the Electors Clause that extended to a
state’s conduct of the presidential election. We agree
that Wisconsin lawfully appointed its electors in the
manner directed by its Legislature and add that the
President’s claim also fails because of the unreasonable delay that accompanied the challenges the
President now wishes to advance against Wisconsin’s
election procedures.
I
A
On November 3, the United States held its 2020
presidential election. The final tally in Wisconsin
showed that Joseph R. Biden, Jr. won the State by
20,682 votes. On November 30, the Wisconsin Elections
Commission certified the results, the Governor signed
an accompanying certification, and Wisconsin notified
the National Archives that it had selected Biden’s ten
electors to represent the State in the Electoral College.
Two days later, the President brought this lawsuit
challenging certain procedures Wisconsin had used in
conducting the election. The President alleged that the
procedures violated the Electors Clause of the U.S.
Constitution:
Each State shall appoint, in such Manner as
the Legislature thereof may direct, a Number

3a
of Electors, equal to the whole Number of
Senators and Representatives to which the
State may be entitled in the Congress . . . .
U.S. CONST. art. II, § 1, cl. 2.
To implement the obligation imposed by the Electors
Clause, Wisconsin’s Legislature has directed that the
State’s electors be appointed “[b]y general ballot at the
general election for choosing the president and vice
president of the United States.” WIS. STAT. § 8.25(1).
It has further assigned “responsibility for the administration of . . . laws relating to elections and election
campaigns” to the Commission. Id. § 5.05(1). Municipalities run the election, and each municipality’s own
clerk “has charge and supervision of elections and
registration in the municipality.” Id. § 7.15(1).
The President alleges that the Commission and
municipal officials so misused the power granted to
them by the Legislature that they had unconstitutionally altered the “Manner” by which Wisconsin appointed
its electors. His allegations challenge three pieces of
guidance issued by the Commission well in advance of
the 2020 election. (Each guidance document is available on the Commission’s website, https://elections.
wi.gov.)
First, in March 2020, the Commission clarified the
standards and procedures for voters to qualify as
“indefinitely confined” and therefore be entitled to vote
absentee without presenting a photo identification.
See WIS. STAT. §§ 6.86(2)(a), 6.87(4)(b)2. The Commission
explained that many voters would qualify based on
their personal circumstances and the COVID-19 pandemic, adding that Wisconsin law established no method
for a clerk to demand proof of a voter’s individual
situation. The Wisconsin Supreme Court endorsed the

4a
Commission’s interpretation when it enjoined the
Dane County Clerk from offering any contrary view of
the law. See Jefferson v. Dane County, 2020 WI 90 In
8-9 (Dec. 14, 2020).
Second, the Commission issued guidance in August
2020 endorsing the use of drop boxes for the return of
absentee ballots. The Commission explained that drop
boxes could be “staffed or unstaffed, temporary or permanent,” and offered advice on how to make them both
secure and available to voters during the pandemic.
Third, four years ago, before the 2016 election, the
Commission instructed municipal clerks on best practices for correcting a witness’s address on an absentee
ballot certificate. See Wis. STAT. § 6.87(2), (6d), (9).
Clerks were able, the Commission explained, to contact the voter or witness or use another source of
reliable information to correct or complete address
information on an absentee ballot.
The President’s complaint alleges that the
Commission, in issuing this guidance, expanded the
standards for “indefinitely confined” voters, invited
voter fraud by authorizing the use of unstaffed drop
boxes, and misled municipal clerks about their powers
to complete or correct address information on absentee
ballots, all contrary to Wisconsin statutory law. The
President sought declaratory and injunctive relief on
the view that these alleged misinterpretations of
state law “infringed and invaded upon the Wisconsin
Legislature’s prerogative and directions under [the
Electors Clause of] Article II of the U.S. Constitution.”
B
After an evidentiary hearing, the district court
rejected the President’s claims on the merits and entered
judgment for the Commission and other defendants.

5a
The Electors Clause, the court determined, addressed
the “Manner”—the “approach, form, method, or
mode” —by which Wisconsin appointed its electors.
For Wisconsin, that meant only by “general ballot at
the general election,” WIS. STAT. § 8.25(1), with the
court further observing that any mistakes in administering the election did not change that the electors
were appointed by general election.
Even if the Electors Clause was read more broadly
to address the “Manner” in which Wisconsin conducted the election, the district court determined that
the Legislature had authorized the Commission to
issue the guidance now challenged by the President.
None of that guidance, the district court reasoned,
reflected such a deviation from the Wisconsin Legislature’s directives as to violate the Electors Clause.
The President promptly appealed, and we expedited
the case for decision.
II
We begin, as we must, by assessing whether the
President has presented a Case or Controversy over
which we have jurisdiction. The inquiry turns on the
doctrine of standing and, more specifically, whether
the President has alleged an injury traceable to the
actions of the defendants and capable of being redressed
by a favorable judicial ruling. See Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560-61 (1992). The district
court answered the question in the President’s favor.
We do too.
On the injury prong of standing, the President has
alleged “concrete and particularized” harm stemming
from the allegedly unlawful manner by which Wisconsin
appointed its electors. Id. at 560. As a candidate for
elected office, the President’s alleged injury is one that

6a
“affect[s] [him] in a personal and individual way.” Id.
at 560 n.1; see also Carson v. Simon, 978 F.3d 1051,
1058 (8th Cir. 2020) (“An inaccurate vote tally is a
concrete and particularized injury to candidates.”).
The alleged injury-in-fact is likewise “fairly traceable”
to the challenged action of the defendants, see Allen v.
Wright, 468 U.S. 737, 751 (1984), all of whom played
some role in administering the election.
The final requirement for Article III standing—that
the alleged injury “likely” would be redressed by a
favorable decision—presents a closer question. Lujan,
504 U.S. at 561. The difficulty is attributable to the
gap between what the President ultimately desires (to
be declared the victor of Wisconsin) on one hand, and
what a court can award him on the other. But the
President’s complaint can be read as more modestly
requesting a declaration that the defendants’ actions
violated the Electors Clause and that those violations
tainted enough ballots to “void” the election. Were we
to grant the President the relief he requests and
declare the election results void, the alleged injury—
the unlawful appointment of electors—would be
redressed. True, our declaration would not result in a
new slate of electors. But the fact that a judicial order
cannot provide the full extent or exact type of relief a
plaintiff might desire does not render the entire case
nonjusticiable. See Church of Scientology v. United
States, 506 U.S. 9, 12-13 (1992). A favorable ruling
would provide the opportunity for the appointment of
a new slate of electors. From there, it would be for the
Wisconsin Legislature to decide the next steps in
advance of Congress’s count of the Electoral College’s
votes on January 6, 2021. See 3 U.S.C. § 15. All of this
is enough to demonstrate Article III standing.

7a
We also conclude that the President’s complaint
presents a federal question, despite its anchoring
in alleged violations of state law. The Eleventh
Amendment and principles of federalism bar federal
courts from directing state officials to follow state law.
See Pennhurst State Sch. & Hosp. v. Halderman, 465
U.S. 89, 121 (1984). But we can decide whether their
interpretation of state law violated a provision of the
federal Constitution, here the Electors Clause. This
distinction alleviates any federalism concerns that
might otherwise preclude our consideration of the
President’s claims.
III
On the merits, the district court was right to enter
judgment for the defendants. We reach this conclusion
in no small part because of the President’s delay in
bringing the challenges to Wisconsin law that provide
the foundation for the alleged constitutional violation.
Even apart from the delay, the claims fail under the
Electors Clause.
A
The timing of election litigation matters. “[A]ny
claim against a state electoral procedure must be
expressed expeditiously.” Fulani v. Hogsett, 917 F.2d
1028, 1031 (7th Cir. 1990) (citing Williams v. Rhodes,
393 U.S. 23, 34-35 (1968)). The Supreme Court underscored this precise point in this very election cycle, and
with respect to this very State. See Republican Nat’l
Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205,
1207 (2020). The Court’s direction was clear: federal
courts should avoid announcing or requiring changes
in election law and procedures close in time to voting.
Doing so risks offending principles of federalism and
reflects an improper exercise of the federal judicial

8a
power. Even more, belated election litigation risks
giving voters “incentive to remain away from the
polls.” Purcell v. Gonzalez, 549 U.S. 1, 5 (2006); see
also Crookston v. Johnson, 841 F.3d 396, 398 (6th Cir.
2016) (“Call it what you will—laches, the Purcell
principle, or common sense—the idea is that courts
will not disrupt imminent elections absent a powerful
reason for doing so.”). On this reasoning, we have
rejected as late claims brought too close in time before
an election occurs. See Democratic Nat’l Comm. v.
Bostelmann, 977 F.3d 639, 642 (7th Cir. 2020); Jones
v. Markiewicz-Qualkinbush, 842 F.3d 1053, 1060-62
(7th Cir. 2016); Navarro v. Neal, 716 F.3d 425, 429
(7th Cir. 2013).
The same imperative of timing and the exercise of
judicial review applies with much more force on the
back end of elections. Before a court can contemplate
entering a judgment that would void election results,
it “must consider whether the plaintiffs filed a timely
pre-election request for relief.” Gjersten v. Bd. of
Election Comm’rs, 791 F.2d 472, 479 (7th Cir. 1986)
(emphasis added) (footnote omitted).
These very considerations underpin the doctrine of
laches. At its core, laches is about timing. “Lathes cuts
off the right to sue when the plaintiff has delayed ‘too
long’ in suing. ‘Too long’ for this purpose means that
the plaintiff delayed inexcusably and the defendant
was harmed by the delay.” Teamsters & Emps. Welfare
Tr. of Ill. v. Gorman Bros. Ready Mix, 283 F.3d 877,
880 (7th Cir. 2002).
The President had a full opportunity before the
election to press the very challenges to Wisconsin law
underlying his present claims. Having foregone that
opportunity, he cannot now—after the election results
have been certified as final—seek to bring those

9a
challenges. All of this is especially so given that the
Commission announced well in advance of the election
the guidance he now challenges. Indeed, the witnessaddress guidance came four years ago, before the
2016 election. The Commission issued its guidance on
indefinitely confined voters in March 2020 and endorsed
the use of drop boxes in August.
Allowing the President to raise his arguments, at
this late date, after Wisconsin has tallied the votes and
certified the election outcome, would impose unquestionable harm on the defendants, and the State’s voters,
many of whom cast ballots in reliance on the guidance,
procedures, and practices that the President challenges here. The President’s delay alone is enough to
warrant affirming the district court’s judgment.
B
The President would fare no better even if we went
further and reached the merits of his claims under the
Electors Clause.
Defining the precise contours of the Electors Clause
is a difficult endeavor. The text seems to point to at
least two constructions, and the case law interpreting
or applying the Clause is sparse. This case does not
require us to answer the question, as the Commission’s guidance did not amount to a violation under the
two most likely interpretations.
Recall that the Electors Clause requires each State
to “appoint, in such Manner as the Legislature thereof
may direct,” presidential electors. U.S. CONST. art. II,
§ 1, cl. 2. By its terms, the Clause could be read as
addressing only the manner of appointing electors
and thus nothing about the law that governs the
administration of an election (polling place operations,
voting procedures, vote tallying, and the like). The

10a
word “appoint” is capacious, “conveying the broadest
power of determination,” including but not limited to
the “mode” of popular election. McPherson v. Blacker,
146 U.S. 1, 27 (1892). Historically, the states used a
variety of manners for appointing electors, such as
direct legislative appointment. See id. at 29-33. For
its part, the Wisconsin Legislature has consistently
chosen a general election to appoint its electors. See
WIS. STAT. § 8.25(1) (2020); WIS. STAT. §§ 6.3, 7.3
(1849). The complaint does not allege that the Commission’s guidance documents shifted Wisconsin from
a general election to some other manner of appointing
electors, like those used in other states in the past. On
this reading of the Electors Clause, the President has
failed to state a claim. See FED. R. CIV. P. 12(b)(6).
But perhaps the better construction is to read the
term “Manner” in the Electors Clause as also encompassing acts necessarily antecedent and subsidiary to
the method for appointing electors—in short, Wisconsin’s
conduct of its general election. Even on this broader
reading, the President’s claims still would fall short.
In his concurring opinion in Bush v. Gore, Chief
Justice Rehnquist suggested that the proper inquiry
under the Electors Clause is to ask whether a state
conducted the election in a manner substantially consistent with the “legislative scheme” for appointing
electors. 531 U.S. 98, 113 (2000) (Rehnquist, C.J.,
concurring). We would not go further and ask, for
example, whether Wisconsin’s officials interpreted
perfectly “[i]solated sections” of the elections code. Id.
at 114.
The Wisconsin Legislature expressly assigned to the
Commission “the responsibility for the administration
of . . . laws relating to elections,” WIS. STAT. § 5.05(1),
just as Florida’s Legislature had delegated a similar

11a
responsibility to its Secretary of State. See Bush, 531
U.S. at 116 (Rehnquist, C.J., concurring). Florida’s
legislative scheme included this “statutorily provided
apportionment of responsibility,” id. at 114, and three
Justices found a departure from that scheme when
the Florida Supreme Court rejected the Secretary’s
interpretation of state law. See id. at 119, 123. And
it was the Minnesota Secretary of State’s lack of a
similar responsibility that prompted two judges of the
Eighth Circuit to conclude that he likely violated the
Electors Clause by adding a week to the deadline for
receipt of absentee ballots. See Carson, 978 F.3d at
1060. By contrast, whatever actions the Commission
took here, it took under color of authority expressly
granted to it by the Legislature. And that authority is
not diminished by allegations that the Commission
erred in its exercise.
We confine our conclusions to applications of the
Electors Clause. We are not the ultimate authority on
Wisconsin law. That responsibility rests with the State’s
Supreme Court. Put another way, the errors that the
President alleges occurred in the Commission’s exercise of its authority are in the main matters of state
law. They belong, then, in the state courts, where the
President had an opportunity to raise his concerns.
Indeed, the Wisconsin Supreme Court rejected his
claims regarding the guidance on indefinitely confined
voters, see Trump v. Biden, 2020 WI 9118 (Dec. 14,
2020), and declined to reach the rest of his arguments
on grounds of lathes.
For our part, all we need to say is that, even on a
broad reading of the Electors Clause, Wisconsin
lawfully appointed its electors in the manner directed
by its Legislature.
For these reasons, we AFFIRM.

12a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk
Phone: (312) 435-5850 www.ca7.uscourts.gov
————
No. 20-3414
————
DONALD J. TRUMP,
Plaintiff-Appellant,
v.
WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants-Appellees.
————
Before: JOEL M. FLAUM, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
————
Originating Case Information:
District Court No: 2:20-cv-01785-BHL
Eastern District of Wisconsin
District Judge Brett H. Ludwig
————
December 24, 2020
————
FINAL JUDGMENT
The judgment of the District Court is AFFIRMED,
with costs, in accordance with the decision of this court
entered on this date.

13a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
[Filed 12/12/20]
————
Case No. 20-cv-1785-BHL
————
DONALD J. TRUMP,
Plaintiff,
v.
THE WISCONSIN ELECTIONS COMMISSION, et al.,
Defendants.
————
DECISION AND ORDER
This is an extraordinary case. Plaintiff Donald J.
Trump is the current president of the United States,
having narrowly won the state of Wisconsin’s electoral
votes four years ago, through a legislatively mandated
popular vote, with a margin of just over 22,700 votes.
In this lawsuit, he seeks to set aside the results of the
November 3, 2020 popular vote in Wisconsin, an
election in which the recently certified results show he
was defeated by a similarly narrow margin of just over
20,600 votes. Hoping to secure federal court help in
undoing his defeat, plaintiff asserts that the defendants, a group of some 20 Wisconsin officials, violated
his rights under the “Electors Clause” in Article II,
Section 1 of the Constitution.1 Plaintiff seizes upon
1

Plaintiff’s complaint also refers to the First Amendment and
the Equal Protection and Due Process Clauses of the Fourteenth
Amendment. At the December 9, 2020 final pre-hearing confer-

14a
three pieces of election guidance promulgated by the
Wisconsin Elections Commission (WEC)—a creation
of the Wisconsin Legislature that is specifically
authorized to issue guidance on the state election
statutes—and argues that the guidance, along with
election officials’ conduct in reliance on that guidance,
deviated so significantly from the requirements of
Wisconsin’s election statutes that the election was
itself a “failure.”
Plaintiff’s requests for relief are even more extraordinary. He seeks declarations that defendants violated
his Constitutional rights and that the violations
“likely” tainted more than 50,000 ballots. Based on
this declaratory relief, his complaint seeks a “remand”
of the case to the Wisconsin Legislature to consider
and remedy the alleged violations. Plaintiff’s ask has
since continued to evolve. In his briefing, he says he
wants “injunctive relief” requiring the Governor “to
issue a certificate of determination consistent with,
and only consistent with, the appointment of electors
by the Wisconsin legislature.” In argument, counsel
made plain that plaintiff wants the Court to declare
the election a failure, with the results discarded, and
the door thus opened for the Wisconsin Legislature to
appoint Presidential Electors in some fashion other
than by following the certified voting results.

ence, plaintiff disclaimed reliance on any First Amendment or
Due Process claims. While counsel purported to reserve the Equal
Protection claim, the complaint offers no clue of a coherent Equal
Protection theory and plaintiff offered neither evidence nor argument to support such a claim at trial. It is therefore abandoned.
See Puffer v. Allstate Ins. Co., 675 F.3d 709, 718 (7th Cir. 2012)
(undeveloped arguments and arguments unsupported by pertinent authority are waived).

15a
Defendants want plaintiff’s claims thrown out,
arguing his complaint fails to state a claim and raising
several knotty issues of federal jurisdiction. With the
Electoral College meeting just days away, the Court
declined to address the issues in piecemeal fashion
and instead provided plaintiff with an expedited
hearing on the merits of his claims. On the morning of
the hearing, the parties reached agreement on a
stipulated set of facts and then presented arguments
to the Court. Given the significance of the case, the
Court promised, and has endeavored, to provide a
prompt decision. Having reviewed the caselaw and
plaintiff’s allegations, the Court concludes it has jurisdiction to resolve plaintiff’s claims, at least to the
extent they rest on federal law, specifically the Electors Clause. And, on the merits of plaintiff’s claims,
the Court now further concludes that plaintiff has not
proved that defendants violated his rights under the
Electors Clause. To the contrary, the record shows
Wisconsin’s Presidential Electors are being determined in the very manner directed by the Legislature,
as required by Article II, Section 1 of the Constitution.
Plaintiff’s complaint is therefore dismissed with
prejudice.2
PROCEDURAL BACKGROUND
AND FINDINGS OF FACT
1. THE PARTIES
Plaintiff Donald J. Trump is the current, properly
elected, President of the United States. In 2016, after
a statewide recount, plaintiff won Wisconsin’s Presidential Electors by 22,748 votes. Certificate of Ascer-

2

This decision constitutes the Court’s findings of fact and conclusions of law under Federal Rule of Civil Procedure 52.

16a
tainment for President, Vice President and Presidential Electors General Election – November 8, 2016, seal
affixed by Governor Scott Walker, National Archives
https://www.archives.gov/electoral-college/2016. Plaintiff went on to win the 2016 Electoral College with
304 electoral votes. 2016 Electoral College Results,
National Archives, https://www.archives.gov/electoralcollege/2016. He was a candidate for reelection to a
second term as President in the November 3, 2020
election.
Defendant Wisconsin Elections Commission is a
creation of the Wisconsin Legislature. See 2015 Wis.
Act 118 §4, Wis. Stat. §5.05. It is a bi-partisan, sixperson commission that has “responsibility for the
administration” of the state election laws in Chapters
5 to 10 and 12 of the Wisconsin Statutes.3 Wis. Stat.
§15.61. Any action by the commission requires the
affirmative vote of at least two-thirds of its members.
Wis. Stat. §5.05(1e). Defendants Ann S. Jacobs, Mark
L. Thomsen, Marge Bostelmann, Dean Knudson, and
Robert F. Spindell, Jr. are five of the six members of
the commission.4
Defendant Scott McDonnell is sued in his official
capacity as the Dane County Clerk. As the county
clerk, McDonnell has a host of election-related responsibilities, including providing ballots and elections
supplies to the municipalities, preparing ballots, educating voters, and training election officials. See Wis.
Stat. §7.10. Additionally, McDonnell serves on the
county board of canvassers, which is responsible for
3

Chapter 11 of the Wisconsin Statutes contains the state’s
campaign finance laws, which are outside of the WEC’s authority.
4

For reasons not explained, plaintiff did not name Commissioner Julie M. Glancey as a defendant.

17a
examining election returns and certifying the results
to the WEC. Wis. Stat. §7.60.
Defendants Maribeth Witzel-Behl, Tara Coolidge,
Matt Krauter, and Kris Teske are sued in their official
capacities as the City Clerks of Madison, Racine,
Kenosha, and Green Bay. As city clerks, they supervise
both voter registration and elections. Wis. Stat. §7.15.
They provide training for voters and election officials
and equip the polling places. Id. Additionally, they are
part of each respective city’s board of canvassers. Wis.
Stat. §7.53.
Because
of
their
substantial
populations,
Milwaukee County and the City of Milwaukee have
additional “election boards.” Milwaukee County has a
county board of election commissioners and the City of
Milwaukee has a municipal board of election commissioners. Wis. Stat. §7.20(1). These boards have the
same powers and duties assigned to the municipal and
county clerks in other parts of the state. Wis. Stat.
§7.21. Defendant George L. Christiansen is sued in his
official capacity as the Milwaukee County Clerk. As
the county clerk, he serves as the executive director of
the county board of election commissioners, id., but
he is not on the county board of canvassers. See Wis.
Stat. §7.60. Jim Owczarski is sued in his official
capacity as the Milwaukee City Clerk. Like Defendant
Christiansen, Owczarski maintains some electionrelated responsibilities, but he is not on the city’s
board of canvassers. Wis. Stat. §7.53.
Julietta Henry is sued in her official capacity as
Milwaukee County Elections Director. The record in
unclear on Henry’s duties as Elections Director. Claire
Woodall-Vogg is sued in her official capacity as the
Executive Director of the City of Milwaukee Election
Commission. She has the same powers and duties

18a
assigned to city clerks throughout the rest of the state.
See Wis. Stat. §7.21.
Defendants Tom Barrett, Satya Rhodes-Conway,
Cory Mason, John Antaramian, and Eric Genrich
are sued in their official capacities as the Mayors of
Milwaukee, Madison, Racine, Kenosha, and Green
Bay. Plaintiff contends that these five mayors unlawfully promoted the expansion of mail-in voting in their
cities by adopting practices that were banned by the
Wisconsin Legislature. Under Wisconsin’s election
statutes, mayors play no formal role in presidential
elections.
Defendants Tony Evers and Douglas La Follette are
sued in their official capacities as the Governor and
Secretary of State of Wisconsin. As governor, in accordance with Wis. Stat. §7.70, Defendant Evers signed the
certificate of ascertainment prepared by the WEC,
affixed the state seal, and forwarded the certificate to
the U.S. administrator of general services. Wis. Stat.
§7.70(5)(b). Defendant La Follette also signed the
certificate of ascertainment.
2. WISCONSIN’S MANNER OF CHOOSING
PRESIDENTIAL ELECTORS
Article II, Section 1, Clause 2 of the United States
Constitution (the “Electors Clause”) states, “Each
State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of Electors . . .” U.S.
CONST. art. II, §1, cl. 2. Pursuant to this federal
Constitutional command, the Wisconsin Legislature
has directed that Wisconsin choose its Presidential
Electors through a general election. See Wis. Stat.
§8.25. Specifically, the Wisconsin Legislature has
directed:

19a
(1) Presidential electors. By general ballot at
the general election for choosing the president and vice president of the United States
there shall be elected as many electors of
president and vice president as this state is
entitled to elect senators and representatives
in congress. A vote for the president and vice
president nominations of any party is a vote
for the electors of the nominees.
Wis. Stat. §8.25(1). The statutes define “general
election” as “the election held in even-numbered years
on the Tuesday after the first Monday in November to
elect United States . . . presidential electors.” Wis.
Stat. §5.02(5).
The Wisconsin Legislature has also established laws
detailing the particulars of election administration;
these details are set forth in Chapters 5 to 12 of the
Wisconsin Statutes. For the last five years, responsibility for the administration of Wisconsin elections
has rested with the WEC. The Wisconsin Legislature
created the WEC in 2015 specifically to “have the
responsibility for the administration of . . . laws
relating to elections and election campaigns.” 2015
Wis. Act 118 §4; Wis. Stat. §5.05. To carry out these
duties, the legislature has delegated significant
authority to the WEC. The Wisconsin Legislature
directed the WEC to appoint an administrator to
“serve as the chief election officer” of the state. Wis.
Stat. §5.05(3d), (3g). The Wisconsin Legislature has
authorized the WEC to conduct investigations, issue
subpoenas, and sue for injunctive relief. Wis. Stat.
§5.05(b), (d). The legislature also directed the WEC to
receive reports of “possible voting fraud and voting
rights violations,” Wis. Stat. §5.05(13), and to
“investigate violations of laws administered by the

20a
commission and . . . prosecute alleged civil violations
of those laws.” Wis. Stat. §5.05(2m)(a).
The Wisconsin Legislature has also assigned powers
and duties under the state election laws to municipal
and county clerks, municipal and county boards of
canvassers, and in Milwaukee, the municipal and
county boards of election commissioners. Wis. Stat.
§§7.10, 7.15, 7.21. The Wisconsin Legislature has
directed that these officials, along with the WEC,
administer elections in Wisconsin. See Wis. Stat. chs.
5 to 10 and 12. When the polls close after an election,
these officials make sure that “all ballots cast at an
election . . . be counted for the person . . . for whom . . .
they were intended.” Wis. Stat. §7.50(2). Once all the
votes have been counted, the WEC chairperson “shall
publicly canvass the returns and make his or her
certifications and determinations on or before . . . the
first day of December following a general election.”
Wis. Stat. §7.70(3)(a). For the determination of Presidential Electors, the Wisconsin Legislature has
directed the WEC to “prepare a certificate showing the
determination of the results of the canvass and the
names of the persons elected.” Wis. Stat. §7.70(5)(b).
The legislature has further directed that “the governor
shall sign [the certificate], affix the great seal of the
state, and transmit the certificate by registered mail
to the U.S. administrator of general services.” Id. At
noon on the first Monday after the second Wednesday
in December, the Presidential Electors meet to vote for
the presidential candidate from the political party
which nominated them. Wis. Stat. §7.75.
In addition to logistically administering the election,
the Wisconsin Legislature has directed the WEC to
issue advisory opinions, Wis. Stat. §5.05(6a), and
“[p]romulgate rules . . . applicable to all jurisdictions

21a
for the purpose of interpreting or implementing the
laws regulating the conduct of elections or election
campaigns.” Wis. Stat. §5.05(1)(f). The WEC is to “conduct or prescribe requirements for educational programs to inform electors about voting procedures,
voting rights, and voting technology.” Wis. Stat.
§5.05(12).
Finally, the Wisconsin Legislature has provided
detailed recount procedures. Wis. Stat. §9.01. After
requesting a recount, “any candidate . . . may appeal
to circuit court.” Wis. Stat. §9.01(6). The legislature
has also directed that “[Wis. Stat. §9.01] constitutes
the exclusive judicial remedy for testing the right to
hold an elective office as the result of an alleged
irregularity, defect or mistake committed during the
voting or canvassing process.” Wis. Stat. §9.01(11).
3. WEC’S GUIDANCE IN ADVANCE OF THE
2020
PRESIDENTIAL
ELECTION
IN
WISCONSIN
Consistent with its statutory mandate, since the
start of the year, the WEC has published more than
175 messages to County and Municipal elections
officials in anticipation of the November 2020 general
election. See Recent Clerk Communications, Wisconsin
Elections Commission, https://elections.wi.gov/clerks/
recent-communications. In addition to notifying
elections officials of training opportunities, relevant
court decisions, and upcoming deadlines, these messages provided detailed guidance on how to prepare for
the election and count the resulting votes. See id. As
stipulated by the parties, the WEC issued specific
guidance on three specific issues flagged by plaintiff:
missing or incorrect absentee ballot witness certificate
addresses, voters claiming indefinitely confined

22a
status, and absentee ballot drop boxes. (Stipulation of
Proposed Facts and Exhibits, ECF No. 127 ¶11.)
WEC’s guidance on at least one of these issues dates
back even further. More than four years ago, on
October 18, 2016, the WEC issued written guidance to
city and county elections boards providing guidance on
the topic of witness addresses provided in connection
with absentee balloting. (Stipulation, ECF No. 127
¶4.)5 This guidance explained to elections officials how
to handle missing or incorrect witness addresses on
absentee certificate envelopes. (Pl. Ex. 73, ECF No.
117-72.) The memo highlighted Wis. Stat. §6.87, which
states “[i]f a certificate is missing the address of a
witness, the ballot may not be counted.” (Id.) Since the
statute does not provide any additional details, the
WEC defined “address” as a “street number, street
name and name of municipality.” (Id.) The memo then
provided guidance for situations where a voter may
have left off the certificate one or more components of
the witness address. In the memorandum, the WEC
states “clerks must take corrective actions in an
attempt to remedy a witness address error.” (Id.) The
guidance allowed clerks to contact the voter to notify
them of the address requirement; however, the clerk
only had to contact the voter if the clerk could not
“remedy the address insufficiency from extrinsic
sources.” (Id.) The WEC stated “clerks shall do all that
they can reasonably do to obtain any missing part of
the witness address.” (Id.) The purpose of the guidance
was to “assist voters in completing the absentee
5

The parties’ stipulation describes this as an October 19, 2016
memorandum. (Stipulation of Proposed Facts and Exhibits, ECF
No. 127 ¶4.) The memo itself is dated October 18, 2016, however.
(ECF No. 117-72.) The Court will use the date on the actual document.

23a
certificate sufficiently so their votes may be counted.”
(Id.) This has been the unchallenged guidance on the
issue for more than four years.
In September 2020, as directed in Wis. Stat.
§7.08(3), the WEC updated the Wisconsin Election
Administration Manual. The updated manual states
“[c]lerks may add a missing witness address using
whatever means are available.” Wis. Election Admin.
Manual, 99 (September 2020). Finally, on October 19,
2020, the WEC issued “Spoiling Absentee Ballot
Guidance,” reaffirming the previous guidance, and
stating “the clerk should attempt to resolve any missing witness address information prior to Election Day
if possible, and this can be done through reliable
information (personal knowledge, voter registration
information, through a phone call with the voter or
witness). The witness does not need to appear to add a
missing address.” (Pl. Ex. 35, ECF No. 117-35.)
On March 29, 2020, in the early stages of the
COVID-19 pandemic, the WEC issued “Guidance for
Indefinitely Confined Electors COVID-19” to election
officials across the state. (Pl. Ex. 2, ECF No. 117-2.)
Through the published guidance, the WEC stated that
“many voters of a certain age or in at-risk populations”
may meet the standard of indefinitely confined due to
the ongoing pandemic. (Id.) The Guidance also stated:
1. Designation of indefinitely confined status
is for each individual voter to make based
upon their current circumstances. It does not
require permanent or total inability to travel
outside of the residence. The designation is
appropriate for electors who are indefinitely
confined because of age, physical illness or
infirmity or are disabled for an indefinite
period.

24a
2. Indefinitely confined status shall not be
used by electors simply as a means to avoid
the photo ID requirement without regard to
whether they are indefinitely confined because
of age, physical illness or infirmity, or
disability.
(Id.) The WEC issued this guidance after the Dane
County Clerk issued a statement advising that the
pandemic itself was sufficient to establish indefinite
confinement for all voters. (See Stipulation, ECF No.
127 ¶23.) The statement was challenged in court, and
the Wisconsin Supreme Court granted a temporary
injunction against the Dane County Clerk. See
Jefferson v. Dane County, 2020AP557-OA (March 31,
2020). In concluding that the Dane County guidance
was incorrect, the Wisconsin Supreme Court expressly
confirmed that the WEC guidance quoted above
provided “the clarification on the purpose and proper
use of the indefinitely confined status that is required
at this time.” Id.
On August 19, 2020, the WEC sent all Wisconsin
election officials additional guidance that, among
other things, discussed absentee ballot drop boxes. (Pl.
Ex. 13, ECF No. 117-13.) Wisconsin law provides that
absentee ballots “shall be mailed by the elector, or
delivered in person, to the municipal clerk.” Wis. Stat
§6.87(4)(b). The WEC memorandum provided advice
on how voters could return their ballots to the municipal clerk, including “information and guidance on drop
box options for secure absentee ballot return for
voters.” (Pl. Ex. 13, ECF No. 117-13.) Citing to a
resource developed by the U.S. Cybersecurity and
Infrastructure Security Agency (CISA), the guidance
states the “drop boxes can be staffed or unstaffed,
temporary or permanent.” (Id.) The memorandum

25a
stated that the “drop boxes . . . allow voters to deliver
their ballots in person” and will allow voters “who wait
until the last minute to return their ballot.” (Id.) The
memorandum lists potential types of drop boxes, along
with security requirements, chain of custody, and
location suggestions for the drop boxes. (Id.)
As stipulated by the parties, election officials in
Milwaukee County, the City of Milwaukee, Dane
County, and the City of Madison relied on the above
WEC guidance when handling absentee ballots with
missing or incorrect witness address, using absentee
ballot drop boxes, and handling voters that had
claimed indefinitely confined status. (Stipulation,
ECF No. 127 ¶11.) Because they relied on the guidance, election workers added missing information to
the witness address on at least some absentee ballots,
more than five hundred drop boxes were used throughout the state, and approximately 240,000 “indefinitely
confined” voters requested absentee ballots. (Id. ¶¶ 17,
18, 28.)
4. THE 2020 PRESIDENTIAL ELECTION IN
WISCONSIN
On November 3, 2020, nearly 3.3 million Wisconsin
voters cast their ballots in the general election for the
President and Vice President of the United States.
(Stipulation, ECF No. 127 ¶7.) At 8:00 p.m., all polls
in Wisconsin closed. Wis. Stat. §6.78. The respective
boards of canvassers began to publicly canvass all the
votes received at the polling place. Wis. Stat. §7.51.
Voting officials in Milwaukee dealt with an unprecedented number of absentee ballots during this election. (Pl. Ex. 62, ECF No. 117-61.) In Milwaukee and
Dane Counties, and likely other locations, election
officials processed the absentee ballots in accordance

26a
with guidance published by the WEC. (Stipulation,
ECF No. 127 ¶11.) The WEC received the last county
canvass on November 17, 2020. (Id. ¶8.) On November
18, 2020, the deadline for requesting a recount,
plaintiff sought a recount under Wis. Stat. §9.01 of
only Dane and Milwaukee Counties.6 (Id. ¶9.) The
Milwaukee County recount was completed on
November 27, 2020 and the Dane County recount was
completed on November 29, 2020. (Id. ¶10.) Once the
recount was complete, the WEC prepared the Certificate of Ascertainment for the Governor’s signature.
See Wis. Stat. §7.70(5)(b). On November 30, 2020,
Governor Evers signed the certificate and affixed the
state seal. (Def. Ex. 501, ECF No. 119-1.)
On December 1, 2020, the day after Wisconsin certified its election results, Donald Trump, Michael Pence,
and the Trump campaign filed a petition in the
Wisconsin Supreme Court against Governor Tony
Evers, the Wisconsin Elections Commission, and
other state election officials. Trump v. Evers, No.
2020AP001971 (Wis. S. Ct.). The issues presented by
the plaintiffs included whether absentee ballots
should be excluded due to various alleged deviations
from legislated election procedures. As a remedy, they
asked the Court to decertify the state’s election results
6

After receiving a recount petition and $3 million payment
from the Trump campaign, the six-member, bipartisan commission conducted a meeting on November 18, 2020, at which the
commission unanimously approved the recount order. The WEC
ordered a partial recount of the presidential election results in
Dane and Milwaukee Counties on November 19, 2020. The
recount order required Dane and Milwaukee Counties’ boards of
canvassers to convene by 9 a.m. Saturday, November 21, and
complete their work by noon on Tuesday, December 1. Wis. Elections Comm’n Order for Recount, Recount EL 20-01, https://elect
ions.wi.gov/node/7250.

27a
and exclude 221,000 votes in Milwaukee and Dane
Counties from the count. On December 3, 2020, the
Wisconsin Supreme Court denied the petition for leave
to commence an original action in the state Supreme
Court, but noted that, as an aggrieved candidate,
plaintiff could refile at the circuit court level.
That same day, plaintiff filed his complaint in this
Court. Additionally on that day, plaintiff, along with
Michael R. Pence, and Donald J. Trump for President,
Inc. filed complaints in Dane and Milwaukee County
Circuit Courts against Joseph R. Biden, Kamala D.
Harris, and several Wisconsin election officials, some
of whom are defendants in this case. Trump v.
Biden, No. 2020CV007092 (Milw. Co. Cir. Ct.), No.
2020CV002514 (Dane Co. Cir. Ct.). Chief Justice
Roggensack of the Wisconsin Supreme Court combined the cases and appointed Racine County Reserve
Judge Stephen A. Simanek to hear it. The suits are
substantially similar and both allege irregularities in
the way absentee ballots were administered. In the
Milwaukee County case, the plaintiffs allege the
ballots were issued without the elector having first
submitted a written application; there were incomplete and altered certification envelopes; and there
was a massive surge in indefinitely confined absentee
ballot voters. The Dane County case included the same
claims, plus one involving an allegation that absentee
ballots were improperly completed or delivered to City
of Madison employees at a public event, “Democracy
in the Park.” The plaintiffs asked the state court to
set aside the county board of canvassers’ legal

28a
determinations that certain absentee ballots should be
counted due to deviations in state elections laws.7
LEGAL CONCLUSIONS AND ANALYSIS
Plaintiff claims that defendants violated his rights
under the Electors Clause by “deviating from the law,
substituting their ‘wisdom’ for the laws passed by the
State Legislature and signed by the Governor.” (Pl.
Br., ECF No. 109.) In the complaint, plaintiff contends
three specific pieces of guidance issued by the WEC,
and followed by the named defendants, contradict
Wisconsin’s election statutes, and that the WEC
lacked the authority to issue any guidance in contravention of Wisconsin law. (Compl., ECF No. 1.) Invoking the Court’s federal question jurisdiction under 28
U.S.C. §1331, plaintiff asserts claims for the violation
of his federal Constitutional rights under 42 U.S.C.
§1983. (Id.) Among other remedies, he seeks declaratory relief under the Declaratory Judgment Act, 28
U.S.C. §2201, and asks this Court to declare the
Wisconsin general election void under the U.S.
Constitution. (Id.)
I. This Court Has Limited Jurisdiction to Resolve
Plaintiff’s Electors Clause Challenge.
Before addressing the merits of plaintiff’s claims,
this Court has the obligation of confirming that it
has jurisdiction even to consider them. Kokkonen v.
Guardian Life Ins. Co. of Am., 511 U.S. 375, 377 (1994)
(federal district courts “possess only that power
7

On December 11, Judge Simanek affirmed the recount and
ruled against plaintiff in the state court proceeding. Trump v.
Biden, No. 2020CV007092, Doc. 101 (Milw. Co. Cir. Ct. Dec. 11,
2020). Plaintiff has since filed an appeal in the Wisconsin Supreme
Court.

29a
authorized by Constitution and statute”). Defendants
offer a host of arguments related to the justiciability
of plaintiff’s claims. They insist that plaintiff lacks
standing to assert his claims, that his claims are
barred by the Eleventh Amendment, and that they are
moot. (Defs. Brs., ECF No. 70, 81, 87, 95, 98, 100, 101,
and 120.) Finally, they contend that even if this Court
could resolve plaintiff’s claims, it should abstain from
doing so. (Defs. Brs., ECF No. 70, 81, 87, 95, 101, and
120.) Despite the tricky questions of federal jurisdiction implicated by plaintiff’s claims and requests
for relief, the Court concludes plaintiff’s claims are
justiciable, at least in part. Given the importance of
the issues at stake and the need for a prompt
resolution, the Court will not abstain from ruling on
whether defendants violated plaintiff’s federal rights
under the Electors Clause.
A. Plaintiff Has Standing to Seek an Adjudication of the Alleged Violation of His Rights
under the Electors Clause.
Defendants insist that plaintiff lacks standing to
assert claims and obtain declaratory relief based on
the Electors Clause. (Defs. Brs., ECF No. 70, 81, 87,
95, 98, 100, 101, and 120.) That plaintiff seeks primarily declaratory relief does not remove his obligation to
establish standing. The Declaratory Judgment Act
permits the Court to “declare the rights and other legal
relations of any interested party,” but only when there
is “a case of actual controversy within its jurisdiction.”
28 U.S.C. §2201(a). “A ‘controversy’ in this sense must
be one that is appropriate for judicial determination,”
Aetna Life Ins. Co. of Hartford, Conn. v. Haworth, 300
U.S. 227, 240 (1937), and “the core component of
standing is an essential and unchanging part of the

30a
case-or-controversy requirement of Article III.” Lujan
v. Defs. of Wildlife, 504 U.S. 555, 560 (1992).
To establish standing, plaintiff bears the burden of
proving that he “(1) suffered an injury in fact, (2) that
is fairly traceable to the challenged conduct of the
defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” Spokeo, Inc. v. Robins, 136
S. Ct. 1540, 1547 (2016), as revised (May 24, 2016). An
injury in fact is one in which plaintiff claims to have
“suffered ‘an invasion of a legally protected interest’
that is ‘concrete and particularized’ and ‘actual or
imminent, not conjectural or hypothetical.’” Id. (quoting Lujan, 504 U.S. at 560).
Plaintiff asserts that he suffered an injury in fact
when he “was denied the Constitutional right to have
electors appointed in a lawful manner in an election in
which he was a candidate.” (Pl. Br., ECF No. 109.) The
Court agrees. The Eighth Circuit and the Eleventh
Circuit have concluded that losing candidates likely
have standing to bring a claim under the Electors
Clause, because such a candidate has suffered a
“personal, distinct injury.” Wood v. Raffensperger, No.
20-14418, 2020 WL 7094866, at *4 (11th Cir. Dec. 5,
2020); Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir.
2020) (“An inaccurate vote tally is a concrete and
particularized injury to candidates such as the
Electors.”). That is the situation here: plaintiff, a candidate for election, claims he was harmed by defendants’ alleged failure to comply with Wisconsin law.
Assuming he could prove his claims, he has suffered
an injury. Plaintiff, as a candidate for election, has a
concrete, particularized interest in the actual results
of the general election. Carson, 978 F.3d at 1057; see
Carney v. Adams, ___ S. Ct. ___, 2020 WL 7250101
(Dec. 10, 2020) (holding plaintiff had not proved injury

31a
in fact sufficient to establish standing where plaintiff
was merely potential candidate and had not yet
applied for judicial position). Plaintiff has therefore
established injury in fact.
Based on the allegations in his complaint, plaintiff
also meets the other requirements for standing. He
contends that defendants’ failure to comply with
Wisconsin law has resulted in a failed election, one in
which he was one of the two major-party candidates
for President. (Compl., ECF No. 1.) As administrators
of the election, defendants implemented the Wisconsin
election statutes and WEC’s guidance. His harms are
therefore traceable to defendants. And as redress, he
seeks a declaration that defendants violated the
Electors Clause by failing to follow the directions of
the Wisconsin Legislature during the 2020 Presidential Election. 8 (Id.)
Redressability is established because “plaintiff
‘personally would benefit in a tangible way from the
court’s intervention.’” Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 104 n.5 (1998) (quoting Warth v.
Seldin, 422 U.S. 490, 508 (1975)). Thus, his alleged
injury is fairly traceable to the challenged conduct of
8

The complaint alleges the exclusive remedy for a failed election resides in the Wisconsin Legislature. (Compl., ECF No. 1.)
That allegation brought strongly into question whether this
Court could redress Plaintiff’s injury, a point raised by the
Court at the initial hearing with the parties. Plaintiff has since
explained that he seeks a declaration that the Wisconsin general
election was a failed election under 3 U.S.C. §2, a declaration he
argues is a predicate to allowing the Wisconsin Legislature to
take action to determine the manner in which the state should
appoint its Presidential Electors now that the originally chosen
method has “failed.” (Transcript, ECF No. 130.) While this explanation is tenuous, it sufficiently ties the relief requested to a
potential remedy to establish standing.

32a
the defendants and would be redressed by a favorable
judicial decision.
Defendants’ arguments against standing are largely
premised on their challenges to the merits of plaintiff’s
claims. For example, defendants complain that
“[p]laintiff offers no proof whatsoever of how many
votes were affected in the three categories of alleged
state election law violations he identifies.” (Def. Br.,
ECF No. 98.) But that argument puts the cart before
the horse. A court must determine standing based on
the allegations in the complaint, not based on its final
resolution of the veracity of those allegations. Spokeo,
136 S. Ct. at 1547 (“Where, as here, a case is at the
pleading stage, the plaintiff must ‘clearly ... allege
facts demonstrating’ each element.”). If plaintiff were
to succeed in proving that defendants violated the
Electors Clause, causing Wisconsin’s Presidential
Electors to be appointed in a manner inconsistent with
the Wisconsin Legislature’s directives, and depriving
plaintiff of his opportunity to win those Presidential
Electors, he should have the ability (and the standing)
to enforce the Constitution’s plain terms in federal
court.
B. The Eleventh Amendment and Pennhurst
Do Not Apply to Plaintiff’s Unique Article II
Claims.
Defendants next argue that plaintiff’s claims are
barred by the Eleventh Amendment and the Supreme
Court’s decision in Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89 (1984). (Defs. Brs., ECF No.
75, 81, 98, 101, and 120.) They contend that plaintiff
is complaining that defendants failed to comply with
state law such that the Eleventh Amendment bars this
Court from entertaining such claims. (Id.)

33a
The Eleventh Amendment provides that: “The
judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.” Defendants are correct
that, as a general matter, the Eleventh Amendment
bars litigation in federal courts against a state.9 Will
v. Michigan Dep't of State Police, 491 U.S. 58, 66
(1989); MCI Telecommunications Corp. v. Illinois Bell
Tel. Co., 222 F.3d 323, 336 (7th Cir. 2000) (“[The
Eleventh] Amendment bars federal jurisdiction over
suits brought against a state . . . [and] extends to state
agencies as well.”). But the Supreme Court has long
held that suits against state agents, rather than
against the state itself, based on those agents’
violations of federal law, can be maintained in federal
court without running afoul of the Eleventh
Amendment. See Ex parte Young, 209 U.S. 123, 15960 (1908). A federal court thus may adjudicate and
order relief against state officers based on allegations
of ongoing unconstitutional conduct. Id.; MCI
Telecommunications Corp., 222 F.3d at 345.
In Pennhurst, the Supreme Court clarified that the
rule in Ex parte Young does not extend to claims based
merely on alleged violations of state law. 465 U.S. at
106 (“[I]t is difficult to think of a greater intrusion on
9

The Eleventh Amendment precludes a federal suit against
state agencies, and this likely includes the Wisconsin Elections
Commission. See Wis. Stat. §5.05; MCI Telecommunications
Corp. v. Illinois Bell Tel. Co., 222 F.3d 323, 336 (7th Cir. 2000);
Feehan v. Wisconsin Elections Commission, No. 20-cv-1771, 2020
WL 7250219 (E.D. Wis. Dec. 9, 2020). The WEC has not made this
argument. Even if it had, plaintiff’s claims against the individual
commission members would survive.

34a
state sovereignty than when a federal court instructs
state officials on how to conform their conduct to state
law.”). Thus, under the Eleventh Amendment and
state sovereign immunity, a federal court “cannot
enjoin a state officer from violating state law.” Dean
Foods Co. v. Brancel, 187 F.3d 609, 613 (7th Cir. 1999).
The Pennhurst exception to Ex parte Young does not
apply here, because plaintiff’s claims are based on
federal law—the Electors Clause of Article II, Section
1 of the U.S. Constitution. Donald J. Trump for
President, Inc. v. Boockvar, No. 2:20-CV-966, 2020 WL
5997680, at *75 (W.D. Pa. Oct. 10, 2020) (holding that
claims under the Electors Clause are not barred by the
Eleventh Amendment); cf. Dean Foods Co., 187 F.3d
at 614 (“the question at the heart of this jurisdictional
matter is what is the source of the regulations’ potential invalidity”). While plaintiff also cites provisions of
Wisconsin’s election statutes, he does so in an attempt
to show that defendants violated not merely those
statutes, but rather the Electors Clause itself. In this
unique context, alleged violations of state laws
implicate and may violate federal law. See Bush v.
Palm Beach Cnty. Canvassing Bd., 531 U.S. 70, 76
(2000) (“[I]n the case of a law enacted by a state legislature applicable not only to elections to state offices,
but also to the selection of Presidential electors, the
legislature is not acting solely under the authority
given it by the people of the State, but by virtue of a
direct grant of authority made under Art. II, §1, cl. 2,
of the United States Constitution.”). This is the
opposite of what the Eleventh Amendment forbids;
here, a truly federal cause of action is being articulated. Because plaintiff’s claims and request for relief
are premised on a federal Constitutional violation, not
merely a violation of state law, Pennhurst does not

35a
apply, and the Eleventh Amendment does not bar
plaintiff’s claims.
C. Plaintiff’s Claims Are Not Moot.
Defendants also contend plaintiff’s claims are moot.
(Defs. Brs., ECF No. 70, 75, 95, 120.) They insist that
because plaintiff waited until after Wisconsin certified
the election results to file suit, his suit is too late. (Id.)
They further maintain that plaintiff’s claims are moot
because Governor Evers has already signed a “Certificate of Ascertainment For President, Vice President,
and Presidential Electors General Election - November
3, 2020” (2020 Electoral College Results, National
Archives, https://www.archives.gov/electoral-college/
2020) on November 30, 2020, an act they contend
makes this action irrelevant. (Id.)
The final determination of the next President and
Vice President of the United States has not been made,
however, and the issuance of a Certificate of Ascertainment is not necessarily dispositive on a state’s
electoral votes. See Bush v. Gore, 531 U.S. 98, 144
(2000) (Ginsburg J., dissenting) (noting none of the
various Florida elector deadlines “has ultimate significance in light of Congress’ detailed provisions for
determining, on ‘the sixth day of January,’ the validity
of electoral votes”).
Under the federal statute governing the counting of
electoral votes, a state governor may issue a certificate
of ascertainment based on the canvassing and then a
subsequent certificate of “determination” upon the
conclusion of all election challenges. 3 U.S.C. §6. The
certificate of “determination” notifies the U.S. Congress of the state decision when Congress convenes on
January 6 to count the electoral votes. Indeed, the
WEC acknowledged that plaintiff’s claims are not

36a
moot in a filing with the Wisconsin Supreme Court.
(Response of Respondents Wisconsin Elections
Commission and Commissioner Ann Jacobs, Trump v.
Evers, No. 20AP1971-OA, filed Dec. 1, 2020, ECF No.
109-1.) At this time, it is also unclear whether the
litigation commenced in state court, Trump v.
Biden, No. 2020CV007092 (Milw. Co. Cir. Ct.), No.
2020CV002514 (Dane Co. Cir. Ct.), is coming to a final
resolution sufficient to resolve plaintiff’s challenges.
Given plaintiff’s pending appeal and the limited time
available should that appeal succeed on the state law
issues, this Court will proceed to decide the merits of
the federal law claims. The Court concludes this case
is not yet moot.
D. This Court Is Not Required to Abstain from
Deciding Plaintiff’s Challenge under the
Electors Clause.
Defendants also contend that even if this Court
could adjudicate plaintiff’s claims, it should abstain
from doing so. (Defs. Brs., ECF No. 70, 81, 87, 95, 101,
and 120.) They focus on three different abstention
doctrines: (1) Wilton/Brillhart abstention; (2) Pullman
abstention; and (3) Colorado River abstention. (Id.)
After reviewing the law under all three forms of
abstention, this Court will decline defendants’ invitation to abstain.
Defendants first invoke the Wilton/Brillhart abstention doctrine, derived from Wilton v. Seven Falls Co.,
515 U.S. 277, 288 (1995), and Brillhart v. Excess Ins.
Co. of America, 316 U.S. 491 (1942). Under the
Wilton/Brillhart abstention doctrine, “district courts
possess significant discretion to dismiss or stay claims
seeking declaratory relief, even though they have
subject matter jurisdiction over such claims.” R.R. St.
& Co. v. Vulcan Materials Co., 569 F.3d 711, 713 (7th

37a
Cir. 2009). While labelled with Supreme Court case
names, this form of abstention arises from the plain
terms of the Declaratory Judgment Act, 28 U.S.C.
§§ 2201-2202, itself. Section 2201 expressly provides
that district courts “may declare the rights and other
legal relations of any interested party seeking such
declaration.” 28 U.S.C. § 2201(a) (emphasis added).
The statute thus gives district courts the discretion
not to declare the rights of litigants. The Seventh
Circuit has confirmed that a district court properly
exercises discretion to abstain where, for example,
“declaratory relief is sought and parallel state
proceedings are ongoing.” Envision Healthcare, Inc. v.
PreferredOne Ins. Co., 604 F.3d 983, 986 (7th Cir.
2010).
Defendants also invoke Pullman abstention. R.R.
Comm’n of Tex. v. Pullman Co., 312 U.S. 496, 501-02
(1941). The Pullman doctrine “applies when ‘the resolution of a federal constitutional question might be
obviated if the state courts were given the opportunity
to interpret ambiguous state law.’” Wisconsin Right to
Life State Political Action Comm. v. Barland, 664
F.3d 139, 150 (7th Cir. 2011) (quoting Quackenbush
v. Allstate Ins. Co., 517 U.S. 706, 716-17 (1996)).
Pullman abstention is appropriate if there is (1) “a
substantial uncertainty as to the meaning of the state
law” and (2) “a reasonable probability that the state
court’s clarification of state law might obviate the need
for a federal constitutional ruling.” Id. (internal
quotation marks omitted).
Finally, defendants ask the Court to avoid deciding
this case under Colorado River abstention. See
Colorado River Water Conservation District v. United
States, 424 U.S. 800, 818 (1976). Under Colorado River
abstention principles, a federal court should abstain in

38a
favor of a parallel state court lawsuit if (1) “the
concurrent state and federal actions are actually parallel” and (2) “the necessary exceptional circumstances
exist to support a stay or dismissal.” DePuy Synthes
Sales, Inc. v. OrthoLA, Inc., 953 F.3d 469, 477 (7th Cir.
2020) (internal quotation marks omitted).
The Court declines to abstain under any of these
doctrines. The federal Constitutional issues raised in
plaintiff’s complaint are obviously of tremendous
public significance. For the first time in the nation’s
history, a candidate that has lost an election for
president based on the popular vote is trying to use
federal law to challenge the results of a statewide
popular election. While there is parallel litigation
pending in the state court, that litigation does not
address the federal constitutional issue that is the
center of plaintiff’s case. Given the importance of the
federal issue and the limited timeline available, it
would be inappropriate to wait for the conclusion of
the state court case. In these circumstances, the Court
will exercise its discretion to declare plaintiff’s rights
under the Electors Clause and will decline to utilize
Pullman or Colorado River abstention principles to
defer to the state court proceedings.
II. Plaintiff’s Claims Fail on Their Merits—
Wisconsin’s Appointment of Presidential Electors for the 2020 Presidential Election Was Conducted in the Manner Directed by the Wisconsin
Legislature.
To succeed on his claims for relief under 42 U.S.C.
§1983, plaintiff must prove that defendants acted
under the color of state law and deprived him of a right
secured by the Constitution or laws of the United
States. Wilson v. Warren Cnty., Ill., 830 F.3d 464, 468
(7th Cir. 2016) (citations omitted). Plaintiff alleges

39a
that the defendants violated his rights under the
Electors Clause in Article II, Section 1. (Compl., ECF
No. 1.) There is no dispute that defendants’ actions as
alleged in the complaint were undertaken under the
color of Wisconsin law.
Defendants strongly and uniformly dispute, however, that their conduct violated any Constitutional
provision. (Defs. Brs., ECF No. 70, 81, 87, 95, 98, 100,
101, and 120.)
A. The Wisconsin Legislature Has Directed the
Appointment of Presidential Electors to Be
by Popular Vote.
The Electors Clause directs state legislatures to
appoint presidential electors in a manner of their
choosing. U.S. CONST. art. II, § 1, cl. 2. As the
Supreme Court explained just this past summer, the
Electors Clause was the result of “an eleventh-hour
compromise” at the 1787 Constitutional convention.
Chiafalo v. Washington, __ U.S. __, 140 S. Ct. 2316,
2320 (2020). Apparently fatigued and ready to return
to their homes, the delegates decided on language that
would give state legislatures the responsibility of
choosing the “Manner” in which presidential electors
would be appointed. Id. And the Supreme Court has
confirmed that state legislators have “the broadest
power of determination” over who becomes a Presidential Elector. Id. at 2324 (quoting McPherson v. Blacker,
146 U.S. 1, 27 (1892)).
Today, the manner of appointment among the states
is largely uniform. See Chiafalo, 140 S. Ct. at 2321. All
states use an appointment process tied to the popular
vote, with political parties fielding presidential candidates having the responsibility to nominate slates of
Presidential Electors. Id. at 2321-22. But that manner

40a
of appointing Presidential Electors is not required by
the Constitution. As Chief Justice Fuller explained in
1892:
The constitution does not provide that the
appointment of electors shall be by popular
vote, nor that the electors shall be voted for
upon a general ticket, nor that the majority of
those who exercise the elective franchise can
alone choose the electors. It recognizes that
the people act through their representatives
in the legislature, and leaves it to the
legislature exclusively to define the method of
effecting the object.
McPherson, 146 U.S. at 27. Historically, presidential
electors have been appointed directly by state legislatures, by general ticket, by districts, and by majority
popular vote. Id. at 27-32 (summarizing the methods
by which presidential electors were appointed by
state legislatures during the first four presidential
elections). But by 1832, “all States but one had introduced popular presidential elections.” Chiafalo, 140 S.
Ct. at 2321.
The Wisconsin Legislature’s decision to appoint the
state’s presidential electors by popular vote is embodied in Wis. Stat. §8.25(1). This statute provides:
Presidential electors. By general ballot at the
general election for choosing the president
and vice president of the United States there
shall be elected as many electors of president
and vice president as this state is entitled to
elect senators and representatives in congress. A vote for the president and vice president nominations of any party is a vote for the
electors of the nominees.

41a
Wis. Stat. §8.25(1). The statutes define “general election” as “the election held in even-numbered years on
the Tuesday after the first Monday in November to
elect United States . . . presidential electors.” Wis.
Stat. §5.02(5).
Plaintiff contends defendants have violated the
Electors Clause by failing to appoint the state’s presidential electors in the “Manner” directed by the
Wisconsin Legislature. (Compl., ECF No. 1.) By this,
plaintiff means that he has raised issues with the
WEC’s guidance on three issues related to the administration of the election. This argument confuses and
conflates the “Manner” of appointing presidential
electors—popular election—with underlying rules of
election administration. As used in the Electors
Clause, the word “Manner” refers to the “[f]orm” or
“method” of selection of the Presidential Electors.
Chiafalo, 140 S. Ct. at 2330 (Thomas, J., concurring)
(citations omitted). It “requires state legislatures
merely to set the approach for selecting Presidential
electors.” Id. Put another way, it refers simply to “the
mode of appointing electors—consistent with the plain
meaning of the term.” Id.; see also McPherson v.
Blacker, 146 U.S. 1, 27 (1892) (“It has been said that
the word ‘appoint’ is not the most appropriate word
to describe the result of a popular election. Perhaps
not; but it is sufficiently comprehensive to cover that
mode . . .”).
The approach, form, method, or mode the Wisconsin
Legislature has set for appointing Presidential
electors is by “general ballot at the general election.”
Wis. Stat. §8.25(1). There is no dispute that this is
precisely how Wisconsin election officials, including
all the defendants, determined the appointment
of Wisconsin’s Presidential Electors in the latest

42a
election. They used “general ballot[s] at the general
election for choosing the president and vice president
of the United States” and treated a “vote for the
president and vice president nominations of any party
is a vote for the electors of the nominees.” Absent proof
that defendants failed to follow this “Manner” of
determining the state’s Presidential Electors, plaintiff
has not and cannot show a violation of the Electors
Clause.
Plaintiff’s complaints about the WEC’s guidance on
indefinitely confined voters, the use of absentee ballot
drop boxes, and corrections to witness addresses
accompanying absentee ballots are not challenges to
the “Manner” of Wisconsin’s appointment of Presidential Electors; they are disagreements over election
administration. Indeed, the existence of these (or
other) disagreements in the implementation of a large
election is hardly surprising, especially one conducted
statewide and involving more than 3.2 million votes.
But issues of mere administration of a general election
do not mean there has not been a “general ballot” at a
“general election.” Plaintiff’s conflation of these potential nonconformities with Constitutional violations is
contrary to the plain meaning of the Electors Clause.
If plaintiff’s reading of “Manner” was correct, any
disappointed loser in a Presidential election, able to
hire a team of clever lawyers, could flag claimed
deviations from the election rules and cast doubt on
the election results. This would risk turning every
Presidential election into a federal court lawsuit over
the Electors Clause. Such an expansive reading of
“Manner” is thus contrary both to the plain meaning
of the Constitutional text and common sense.

43a
B. Even If “Manner” Includes Aspects of Election Administration, Defendants Administered Wisconsin’s 2020 Presidential Election
as Directed by the Wisconsin Legislature.
Plaintiff’s claims would fail even if the Court were
to read the word “Manner” in Article II, Section 1,
Clause 2 to encompass more than just the “mode” of
appointment. Including material aspects of defendants’ election administration in “Manner” does not
give plaintiff a win for at least two reasons. First, the
record shows defendants acted consistently with, and
as expressly authorized by, the Wisconsin Legislature.
Second, their guidance was not a significant or material departure from legislative direction.
Plaintiff’s “Manner” challenges all stem from the
WEC’s having issued guidance concerning indefinitely
confined voters, the use of absentee ballot drop boxes,
and corrections to witness addresses on absentee
ballots. (Compl., ECF No. 1.) Plaintiff expresses
strong disagreement with the WEC’s interpretations
of Wisconsin’s election statutes, accusing the WEC of
“deviat[ing] from the law” and “substitut[ing] their
‘wisdom’ for the laws passed by the State Legislature
and signed by the Governor.” (Pl. Br., ECF No. 109.)
While plaintiff’s statutory construction arguments are
not frivolous, when they are cleared of their rhetoric,
they consist of little more than ordinary disputes over
statutory construction.
These issues are ones the Wisconsin Legislature has
expressly entrusted to the WEC. Wis. Stat. §5.05(2w)
(“The elections commission has the responsibility for
the administration of chs. 5 to 10 and 12.”). When the
legislature created the WEC, it authorized the commission to issue guidance to help election officials
statewide interpret the Wisconsin election statutes

44a
and new binding court decisions. Wis. Stat. §5.05(5t).
The WEC is also expressly authorized to issue advisory opinions, Wis. Stat. §5.05(6a), and to “[p]romulgate rules . . . applicable to all jurisdictions for the
purpose of interpreting or implementing the laws
regulating the conduct of elections or election
campaigns.” Wis. Stat. §5.05(1)(f). The Wisconsin Legislature also directed that the WEC would have
“responsibility for the administration of . . . laws
relating to elections and election campaigns.” Wis.
Stat. §5.05(1). In sum, far from defying the will of the
Wisconsin Legislature in issuing the challenged
guidance, the WEC was in fact acting pursuant to the
legislature’s express directives.
If “Manner” in the Electors Clause is read to
includes legislative enactments concerning election
administration, the term necessarily also encompasses the Wisconsin Legislature’s statutory choice to
empower the WEC to perform the very roles that
plaintiff now condemns. Thus, the guidance that
plaintiff claims constitutes an unconstitutional deviation from the Wisconsin Legislature’s direction, is, to
the contrary, the direct consequence of legislature’s
express command. And, defendants have acted consistent with the “Manner” of election administration
prescribed by the legislature.
Plaintiff points to language in Chief Justice
Rehnquist’s concurring opinion in Bush v. Gore,
stating that “[a] significant departure from the legislative scheme for appointing Presidential electors
presents a federal constitutional question.” Bush v.
Gore, 531 U.S. 98, 113 (2000) (Rehnquist, C.J., concurring). But the record does not show any significant
departure from the legislative scheme during
Wisconsin’s 2020 Presidential election. At best,

45a
plaintiff has raised disputed issues of statutory construction on three aspects of election administration.10
While plaintiff’s disputes are not frivolous, the Court
finds these issues do not remotely rise to the level of a
material or significant departure from Wisconsin
Legislature’s plan for choosing Presidential Electors.
Because plaintiff has failed to show a clear
departure from the Wisconsin Legislature’s directives,
his complaint must be dismissed. As Chief Justice
Rehnquist stated, “in a Presidential election the
clearly expressed intent of the legislature must
prevail.” Bush v. Gore, 531 U.S. 98, 120 (2000)
(Rehnquist, C.J., concurring). That is what occurred
here. There has been no violation of the Constitution.
CONCLUSION
Plaintiff’s Electors Clause claims fail as a matter of
law and fact. The record establishes that Wisconsin’s
selection of its 2020 Presidential Electors was conducted in the very manner established by the
Wisconsin Legislature, “[b]y general ballot at the
general election.” Wis. Stat. §8.25(1). Plaintiff’s
complaints about defendants’ administration of the
election go to the implementation of the Wisconsin
Legislature’s chosen manner of appointing Presidential Electors, not to the manner itself. Moreover, even
if “Manner” were stretched to include plaintiff’s
implementation objections, plaintiff has not shown a

10

Even these three statutory construction issues were raised
only after-the-fact. If these issues were as significant as plaintiff
claims, he has only himself to blame for not raising them before
the election. Plaintiff’s delay likely implicates the equitable doctrine of laches. The Court does not need to reach that issue, however, and therefore makes no findings or holdings on laches.

46a
significant departure from the Wisconsin Legislature’s
chosen election scheme.
This is an extraordinary case. A sitting president
who did not prevail in his bid for reelection has asked
for federal court help in setting aside the popular vote
based on disputed issues of election administration,
issues he plainly could have raised before the vote
occurred. This Court has allowed plaintiff the chance
to make his case and he has lost on the merits. In his
reply brief, plaintiff “asks that the Rule of Law be
followed.” (Pl. Br., ECF No. 109.) It has been.
IT IS HEREBY ORDERED:
1. Plaintiff’s complaint, ECF No. 1, is DISMISSED WITH PREJUDICE.
2. Plaintiff’s motion for preliminary injunction, ECF No. 6, is DENIED as moot.
3. Defendants’ motions to dismiss, ECF No.
69, 71, 78, 84, 86, 96, 97, and 99, are
GRANTED.
4. Defendant Governor Evers’ oral motion for
judgment under Fed. R. Civ. P. 52 is
GRANTED.
Dated at Milwaukee, Wisconsin on December 12, 2020.
s/ Brett H. Ludwig
BRETT H. LUDWIG
United States District Judge

47a
APPENDIX D
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
[Filed 12/12/20]
————
Case No. 20-cv-1785-bhl
————
DONALD J TRUMP,
Plaintiff,
v.
THE WISCONSIN ELECTIONS COMMISSION,
COMMISSIONER ANN S JACOBS, MARK L THOMSEN,
COMMISSIONER MARGE BOSTELMANN, COMMISSIONER
DEAN KNUDSON, ROBERT F SPINDELL, JR, GEORGE
L CHRISTENSON, JULIETTA HENRY, CLAIRE WOODALLVOGG, MAYOR TOM BARRETT, JIM OWCZARSKI,
MAYOR SATYA RHODES-CONWAY, MARIBETH
WITZEL-BEHL, MAYOR CORY MASON, TARA
COOLIDGE, MAYOR JOHN ANTARAMIAN, MATT
KRAUTER, ERIC GENRICH, KRIS TESKE, DOUGLAS
J LA FOLLETTE, TONY EVERS, SCOTT MCDONELL,
Defendants,
————
WISCONSIN STATE CONFERENCE NAACP, DOROTHY
HARRELL, WENDELL J HARRIS, SR, EARNESTINE MOSS,
DEMOCRATIC NATIONAL COMMITTEE,
Intervenor Defendants.
————
JUDGMENT IN A CIVIL CASE
————

48a
 Decision by Court. This case came before the
court, the court has decided the issues, and the court
has rendered a decision.
PURSUANT TO THE COURT’S ORDER, the action is
DISMISSED WITH PREJUDICE and the plaintiff
shall recover nothing on the complaint.
GINA M. COLLETTI
Clerk of Court
Dated: December 12, 2020
s/ Melissa P.
(By) Deputy Clerk

49a
APPENDIX E
Constitutional and Statutory
Provisions Involved
U.S. Const. art. I, § 4, cl. 1
The times, places and manner of holding elections for
Senators and Representatives, shall be prescribed in
each state by the legislature thereof; but the Congress
may at any time by law make or alter such regulations,
except as to the places of choosing Senators.
U.S. Const. art. II § 1 cl. 2
Each state shall appoint, in such manner as the
Legislature thereof may direct, a number of electors,
equal to the whole number of Senators and Representatives to which the State may be entitled in the
Congress. . .
U.S. Const. amend. I
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise thereof;
or abridging the freedom of speech, or of the press; or
the right of the people peaceably to assemble, and to
petition the Government for a redress of grievances.
U.S. Const. amend. XIV
(Equal Protection and Due Process Clauses)
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.

50a
3 U.S.C.A. § 2
Failure to make choice on prescribed day
Whenever any State has held an election for the
purpose of choosing electors, and has failed to make a
choice on the day prescribed by law, the electors may
be appointed on a subsequent day in such a manner as
the legislature of such State may direct.
3 U.S.C.A. § 5
Determination of controversy as to
appointment of electors
If any State shall have provided, by laws enacted prior
to the day fixed for the appointment of the electors, for
its final determination of any controversy or contest
concerning the appointment of all or any of the electors
of such State, by judicial or other methods or procedures, and such determination shall have been made
at least six days before the time fixed for the meeting
of the electors, such determination made pursuant to
such law so existing on said day, and made at least six
days prior to said time of meeting of the electors, shall
be conclusive, and shall govern in the counting of the
electoral votes as provided in the Constitution, and as
hereinafter regulated, so far as the ascertainment of
the electors appointed by such State is concerned.
3 U.S.C.A. § 15
Counting electoral votes in Congress
Congress shall be in session on the sixth day of
January succeeding every meeting of the electors. The
Senate and House of Representatives shall meet in the
Hall of the House of Representatives at the hour of 1
o’clock in the afternoon on that day, and the President
of the Senate shall be their presiding officer. Two
tellers shall be previously appointed on the part of
the Senate and two on the part of the House of

51a
Representatives, to whom shall be handed, as they are
opened by the President of the Senate, all the certificates and papers purporting to be certificates of the
electoral votes, which certificates and papers shall be
opened, presented, and acted upon in the alphabetical
order of the States, beginning with the letter A; and
said tellers, having then read the same in the presence
and hearing of the two Houses, shall make a list of the
votes as they shall appear from the said certificates;
and the votes having been ascertained and counted
according to the rules in this subchapter provided, the
result of the same shall be delivered to the President
of the Senate, who shall thereupon announce the state
of the vote, which announcement shall be deemed a
sufficient declaration of the persons, if any, elected
President and Vice President of the United States,
and, together with a list of the votes, be entered on the
Journals of the two Houses. Upon such reading of any
such certificate or paper, the President of the Senate
shall call for objections, if any. Every objection shall be
made in writing, and shall state clearly and concisely,
and without argument, the ground thereof, and shall
be signed by at least one Senator and one Member of
the House of Representatives before the same shall be
received. When all objections so made to any vote or
paper from a State shall have been received and read,
the Senate shall thereupon withdraw, and such objections shall be submitted to the Senate for its decision;
and the Speaker of the House of Representatives shall,
in like manner, submit such objections to the House of
Representatives for its decision; and no electoral vote
or votes from any State which shall have been regularly given by electors whose appointment has been
lawfully certified to according to section 6 of this title
from which but one return has been received shall be
rejected, but the two Houses concurrently may reject

52a
the vote or votes when they agree that such vote or
votes have not been so regularly given by electors
whose appointment has been so certified. If more than
one return or paper purporting to be a return from a
State shall have been received by the President of the
Senate, those votes, and those only, shall be counted
which shall have been regularly given by the electors
who are shown by the determination mentioned in
section 5 of this title to have been appointed, if the
determination in said section provided for shall have
been made, or by such successors or substitutes, in
case of a vacancy in the board of electors so ascertained, as have been appointed to fill such vacancy in
the mode provided by the laws of the State; but in case
there shall arise the question which of two or more of
such State authorities determining what electors have
been appointed, as mentioned in section 5 of this title,
is the lawful tribunal of such State, the votes regularly
given of those electors, and those only, of such State
shall be counted whose title as electors the two Houses,
acting separately, shall concurrently decide is supported
by the decision of such State so authorized by its law;
and in such case of more than one return or paper
purporting to be a return from a State, if there shall
have been no such determination of the question in the
State aforesaid, then those votes, and those only, shall
be counted which the two Houses shall concurrently
decide were cast by lawful electors appointed in
accordance with the laws of the State, unless the two
Houses, acting separately, shall concurrently decide
such votes not to be the lawful votes of the legally
appointed electors of such State. But if the two Houses
shall disagree in respect of the counting of such votes,
then, and in that case, the votes of the electors whose
appointment shall have been certified by the executive
of the State, under the seal thereof, shall be counted.

53a
When the two Houses have voted, they shall immediately again meet, and the presiding officer shall then
announce the decision of the questions submitted. No
votes or papers from any other State shall be acted
upon until the objections previously made to the votes
or papers from any State shall have been finally
disposed of.
Wis. Stat. § 5.02(6m)
Definitions
(6m) ”Identification” means any of the following documents issued to an individual:
(a) One of the following documents that is unexpired
or if expired has expired after the date of the most
recent general election:
1. An operator’s license issued under ch. 343.
2. An identification card issued under s. 343.50.
3. An identification card issued by a U.S. uniformed
service.
4. A U.S. passport.
(b) A certificate of U.S. naturalization that was
issued not earlier than 2 years before the date of an
election at which it is presented.
(c) An unexpired driving receipt under s. 343.11.
(d) An unexpired identification card receipt issued
under s. 343.50.
(e) An identification card issued by a federally
recognized Indian tribe in this state.
(f) An unexpired identification card issued by a
university or college in this state that is accredited,
as defined in s. 39.30(1)(d), or by a technical college
in this state that is a member of and governed by the

54a
technical college system under ch. 38, that contains
the date of issuance and signature of the individual
to whom it is issued and that contains an expiration
date indicating that the card expires no later than 2
years after the date of issuance if the individual
establishes that he or she is enrolled as a student at
the university or college on the date that the card is
presented.
(g) An unexpired veterans identification card issued
by the veterans health administration of the federal
department of veterans affairs.
Wis. Stat. §§ 5.05(1) and (2m)
Elections commission; powers and duties
(1) General authority. The elections commission shall
have the responsibility for the administration of chs.
5 to 10 and 12 and other laws relating to elections
and election campaigns, other than laws relating to
campaign financing.
[(a) is omitted in the statute]
(b) In the discharge of its duties and after providing
notice to any party who is the subject of an investigation, subpoena and bring before it any person
and require the production of any papers, books, or
other records relevant to an investigation. Notwithstanding s. 885.01(4), the issuance of a subpoena
requires action by the commission at a meeting of
the commission. In the discharge of its duties, the
commission may cause the deposition of witnesses
to be taken in the manner prescribed for taking
depositions in civil actions in circuit court.
(c) Bring civil actions to require a forfeiture for any
violation of chs. 5 to 10 or 12. The commission may
compromise and settle any civil action or potential

55a
action brought or authorized to be brought by it
which, in the opinion of the commission, constitutes
a minor violation, a violation caused by excusable
neglect, or which for other good cause shown, should
not in the public interest be prosecuted under such
chapter. Notwithstanding s. 778.06, a civil action or
proposed civil action authorized under this paragraph may be settled for such sum as may be agreed
between the parties. Any settlement made by the
commission shall be in such amount as to deprive
the alleged violator of any benefit of his or her
wrongdoing and may contain a penal component to
serve as a deterrent to future violations. In settling
civil actions or proposed civil actions, the commission shall treat comparable situations in a comparable
manner and shall assure that any settlement bears
a reasonable relationship to the severity of the offense
or alleged offense. Except as otherwise provided in
sub. (2m)(c)15. and 16. and ss. 5.08 and 5.081, forfeiture actions brought by the commission shall be
brought in the circuit court for the county where the
defendant resides, or if the defendant is a nonresident of this state, in circuit court for the county
wherein the violation is alleged to occur. For purposes of this paragraph, a person other than an
individual resides within a county if the person’s
principal place of operation is located within that
county. Whenever the commission enters into a settlement agreement with an individual who is accused
of a civil violation of chs. 5 to 10 or 12 or who is
investigated by the commission for a possible civil
violation of one of those provisions, the commission
shall reduce the agreement to writing, together
with a statement of the commission’s findings and
reasons for entering into the agreement and shall

56a
retain the agreement and statement in its office for
inspection.
(d) Sue for injunctive relief, a writ of mandamus or
prohibition, or other such legal or equitable relief as
may be appropriate to enforce any law regulating
the conduct of elections or election campaigns, other
than laws regulating campaign financing, or ensure
its proper administration. No bond is required in
such actions. Actions shall be brought in circuit
court for the county where a violation occurs or may
occur.
(e) Issue an order under s. 5.06, exempt a polling
place from accessibility requirements under s.
5.25(4)(a), exempt a municipality from the requirement to use voting machines or an electronic voting
system under s. 5.40(5m), approve an electronic
data recording system for maintaining poll lists
under s. 6.79, or authorize nonappointment of an
individual who is nominated to serve as an election
official under s. 7.30(4)(e).
(f) Promulgate rules under ch. 227 applicable to all
jurisdictions for the purpose of interpreting or
implementing the laws regulating the conduct of
elections or election campaigns, other than laws
regulating campaign financing, or ensuring their
proper administration.
* * *
(2m) Enforcement.
(a) The commission shall investigate violations of
laws administered by the commission and may
prosecute alleged civil violations of those laws,
directly or through its agents under this subsection,
pursuant to all statutes granting or assigning that

57a
authority or responsibility to the commission. Prosecution of alleged criminal violations investigated
by the commission may be brought only as provided
in par. (c)11., 14., 15., and 16. and s. 978.05(1). For
purposes of this subsection, the commission may
only initiate an investigation of an alleged violation
of chs. 5 to 10 and 12, other than an offense described
under par. (c)12., based on a sworn complaint filed
with the commission, as provided under par. (c).
Neither the commission nor any member or employee
of the commission, including the commission administrator, may file a sworn complaint for purposes of
this subsection.
[(b) is omitted in the statute]
(c) [1. is omitted in the statute]
2. a. Any person may file a complaint with the
commission alleging a violation of chs. 5 to 10 or
12. No later than 5 days after receiving a complaint, the commission shall notify each person
who or which the complaint alleges committed
such a violation. Before voting on whether to take
any action regarding the complaint, other than to
dismiss, the commission shall give each person
receiving a notice under this subd. 2.a. an opportunity to demonstrate to the commission, in
writing and within 15 days after receiving the
notice, that the commission should take no action
against the person on the basis of the complaint.
The commission may not conduct any investigation or take any other action under this subsection
solely on the basis of a complaint by an unidentified complainant.
am. If the commission finds, by a preponderance
of the evidence, that a complaint is frivolous, the

58a
commission may order the complainant to forfeit
not more than the greater of $500 or the expenses
incurred by the commission in investigating the
complaint.
[3. is omitted in the statute]
4. If the commission reviews a complaint and fails
to find that there is a reasonable suspicion that a
violation under subd. 2. has occurred or is occurring, the commission shall dismiss the complaint.
If the commission believes that there is reasonable suspicion that a violation under subd. 2. has
occurred or is occurring, the commission may by
resolution authorize the commencement of an
investigation. The resolution shall specifically set
forth any matter that is authorized to be investigated. To assist in the investigation, the commission
may elect to retain a special investigator. If the
commission elects to retain a special investigator,
the administrator of the commission shall submit
to the commission the names of 3 qualified
individuals to serve as a special investigator. The
commission may retain one or more of the
individuals. If the commission retains a special
investigator to investigate a complaint against a
person who is a resident of this state, the commission shall provide to the district attorney for the
county in which the person resides a copy of the
complaint and shall notify the district attorney
that it has retained a special investigator to
investigate the complaint. For purposes of this
subdivision, a person other than an individual
resides within a county if the person’s principal
place of operation is located within that county.
The commission shall enter into a written contract with any individual who is retained as a

59a
special investigator setting forth the terms of the
engagement. A special investigator who is retained
by the commission may request the commission to
issue a subpoena to a specific person or to authorize the special investigator to request the circuit
court of the county in which the specific person
resides to issue a search warrant. The commission
may grant the request by approving a motion to
that effect at a meeting of the commission if the
commission finds that such action is legally
appropriate.
5. Each special investigator who is retained by
the commission shall make periodic reports to the
commission, as directed by the commission, but in
no case may the interval for reporting exceed 30
days. If the commission authorizes the commission administrator to investigate any matter
without retaining a special investigator, the
administrator shall make periodic reports to the
commission, as directed by the commission, but in
no case may the reporting interval exceed 30 days.
During the pendency of any investigation, the
commission shall meet for the purpose of reviewing the progress of the investigation at least once
every 90 days. The special investigator or the
administrator shall report in person to the commission at that meeting concerning the progress
of the investigation. If, after receiving a report,
the commission does not vote to continue an investigation for an additional period not exceeding 90
days, the investigation is terminated at the end of
the reporting interval. The commission shall not
expend more than $25,000 to finance the cost of
an investigation before receiving a report on the
progress of the investigation and a recommendation to commit additional resources. The commission

60a
may vote to terminate an investigation at any
time. If an investigation is terminated, any complaint from which the investigation arose is
deemed to be dismissed by the commission. Unless
an investigation is terminated by the commission,
at the conclusion of each investigation, the
administrator shall present to the commission one
of the following:
a. A recommendation to make a finding that
probable cause exists to believe that one or more
violations under subd. 2. have occurred or are
occurring, together with a recommended course
of action.
b. A recommendation for further investigation
of the matter together with facts supporting
that course of action.
c. A recommendation to terminate the investigation due to lack of sufficient evidence to
indicate that a violation under subd. 2 has
occurred or is occurring.
6. a. If the commission finds that there is
probable cause to believe that a violation under
subd. 2. has occurred or is occurring, the
commission may authorize the commission
administrator to file a civil complaint against
the alleged violator. In such case, the administrator may request the assistance of special
counsel to prosecute any action brought by the
commission. If the administrator requests the
assistance of special counsel with respect to any
matter, the administrator shall submit to the
commission the names of 3 qualified individuals
to serve as special counsel. The commission may
retain one of the individuals to act as special

61a
counsel. The staff of the commission shall
provide assistance to the special counsel as may
be required by the counsel to carry out his or her
responsibilities.
b. The commission shall enter into a written
contract with any individual who is retained as
special counsel setting forth the terms of the
engagement. The contract shall set forth the
compensation to be paid such counsel by the
state. The contract shall be executed on behalf
of the state by the commission and the commission shall file the contract in the office of the
secretary of state. The compensation shall be
charged to the appropriation under s. 20.510(1)(br).
7. No individual who is appointed or retained by
the commission to serve as special counsel or as a
special investigator is subject to approval under s.
20.930.
[8. is omitted in the statute]
9. At the conclusion of its investigation, the
commission shall, in preliminary written findings
of fact and conclusions based thereon, make a
determination of whether or not probable cause
exists to believe that a violation under subd. 2. has
occurred or is occurring. If the commission
determines that no probable cause exists, it shall
dismiss the complaint. Whenever the commission
dismisses a complaint or a complaint is deemed to
be dismissed under subd. 5., the commission shall
immediately send written notice of the dismissal
to the accused and to the party who made the
complaint.

62a
10. The commission shall inform the accused or
his or her counsel of exculpatory evidence in its
possession.
11. If the commission finds that there is probable
cause to believe that a violation under subd. 2. has
occurred or is occurring, the commission may,
in lieu of civil prosecution of any matter by the
commission, refer the matter to the district attorney for the county in which the alleged violator
resides, or if the alleged violator is a nonresident,
to the district attorney for the county where the
matter arises, or if par. (i) applies, to the attorney
general or a special prosecutor. For purposes of
this subdivision, a person other than a natural
person resides within a county if the person’s principal place of operation is located within that county.
12. The commission shall, by rule, prescribe
categories of civil offenses which the commission
will agree to compromise and settle without a
formal investigation upon payment of specified
amounts by the alleged offender. The commission
may authorize the commission administrator to
compromise and settle such alleged offenses in the
name of the commission if the alleged offenses by
an offender, in the aggregate, do not involve
payment of more than $2,500.
13. If a special investigator or the commission
administrator , in the course of an investigation
authorized by the commission, discovers evidence
that a violation under subd. 2. that was not within
the scope of the authorized investigation has
occurred or is occurring, the special investigator
or the administrator may present that evidence to
the commission. If the commission finds that
there is a reasonable suspicion that a violation

63a
under subd. 2. that is not within the scope of the
authorized investigation has occurred or is occurring, the commission may authorize the special
investigator or the administrator to investigate
the alleged violation or may elect to authorize a
separate investigation of the alleged violation as
provided in subd. 4.
14. If a special investigator or the commission
administrator , in the course of an investigation
authorized by the commission, discovers evidence
of a potential violation of a law that is not administered by the commission arising from or in
relation to the official functions of the subject of
the investigation or any matter that involves
elections, the special investigator or the administrator may present that evidence to the
commission. The commission may thereupon refer
the matter to the appropriate district attorney
specified in subd. 11. or may refer the matter to
the attorney general. The attorney general may
then commence a civil or criminal prosecution
relating to the matter.
15. Except as provided in subd. 17., if the commission refers a matter to the district attorney
specified in subd. 11. for prosecution of a potential
violation under subd. 2. or 14. and the district
attorney informs the commission that he or she
declines to prosecute any alleged civil or criminal
violation related to any matter referred to the
district attorney by the commission, or the district
attorney fails to commence a prosecution of any
civil or criminal violation related to any matter
referred to the district attorney by the commission
within 60 days of the date of the commission’s
referral, the commission may refer the matter to

64a
the district attorney for another prosecutorial unit
that is contiguous to the prosecutorial unit of the
district attorney to whom the matter was originally referred. If there is more than one such
prosecutorial unit, the chairperson of the commission shall determine the district attorney to whom
the matter shall be referred by publicly drawing
lots at a meeting of the commission. The district
attorney may then commence a civil or criminal
prosecution relating to the matter.
16. Except as provided in subd. 17., if the
commission refers a matter to a district attorney
under subd. 15. for prosecution of a potential
violation under subd. 2. or 14. and the district
attorney informs the commission that he or she
declines to prosecute any alleged civil or criminal
violation related to any matter referred to the
district attorney by the commission, or the district
attorney fails to commence a prosecution of any
civil or criminal violation related to any matter
referred to the district attorney by the commission
within 60 days of the date of the commission’s
referral, the commission may refer the matter to
the attorney general. The attorney general may
then commence a civil or criminal prosecution
relating to the matter.
17. The commission is not authorized to act under
subd. 15. or 16. if a special prosecutor is appointed
under s. 978.045 in lieu of the district attorney
specified in subd. 11.
18. Whenever the commission refers a matter to
special counsel or to a district attorney or to the
attorney general under this subsection, the special
counsel, district attorney, or attorney general shall
report to the commission concerning any action

65a
taken regarding the matter. The report shall be
transmitted no later than 40 days after the date
of the referral. If the matter is not disposed of
during that period, the special counsel, district
attorney, or attorney general shall file a subsequent report at the end of each 30-day period
following the filing of the initial report until final
disposition of the matter.
(d) 1. No individual who serves as the commission administrator may have been a lobbyist,
as defined in s. 13.62(11). No such individual
may have served in a partisan state or local
office.
2. No employee of the commission, while so
employed, may become a candidate, as defined
in s. 11.0101(1), for a state or partisan local
office. No individual who is retained by the
commission to serve as a special investigator
or as special counsel may, while so retained,
become a candidate, as defined in s. 11.0101(1),
for any state or local office. A filing officer
shall decline to accept nomination papers or a
declaration of candidacy from any individual
who does not qualify to become a candidate
under this paragraph.
(e) No individual who serves as an employee
of the commission and no individual who is
retained by the commission to serve as a special
investigator or a special counsel may, while so
employed or retained, make a contribution to a
candidate for state or local office. No individual
who serves as an employee of the commission
and no individual who is retained by the
commission to serve as a special investigator or
as special counsel, for 12 months prior to

66a
becoming so employed or retained, may have
made a contribution to a candidate for a
partisan state or local office. In this paragraph,
contribution has the meaning given in s.
11.0101(8).
(f) Pursuant to any investigation authorized
under par. (c), the commission has the power:
1. To require any person to submit in writing
such reports and answers to questions relevant to the proceedings as the commission
may prescribe, such submission to be made
within such period and under oath or otherwise as the commission may determine.
2. To order testimony to be taken by deposition before any individual who is designated
by the commission and has the power to
administer oaths, and, in such instances, to
compel testimony and the production of evidence in the same manner as authorized by
sub. (1)(b).
[3. is omitted in the statute]
4. To pay witnesses the same fees and
mileage as are paid in like circumstances by
the courts of this state.
5. To request and obtain from the department of revenue copies of state income or
franchise tax returns and access to other
appropriate information under s. 71.78(4)
regarding all persons who are the subject of
such investigation.
[(g) is omitted in the statute]
(h) If the defendant in an action for a civil violation
of chs. 5 to 10 or 12 is a district attorney or a circuit

67a
judge or a candidate for either such office, the action
shall be brought by the commission. If the defendant
in an action for a civil violation of chs. 5 to 10 or 12
is the attorney general or a candidate for that office,
the commission may appoint special counsel to bring
suit on behalf of the state.
(i) If the defendant in an action for a criminal
violation of chs. 5 to 10 or 12 is a district attorney or
a circuit judge or a candidate for either such office,
the action shall be brought by the attorney general.
If the defendant in an action for a criminal violation
of chs. 5 to 10 or 12 is the attorney general or a
candidate for that office, the commission may appoint
a special prosecutor to conduct the prosecution on
behalf of the state.
(j) Any special counsel or prosecutor who is
appointed under par. (h) or (i) shall be independent
of the attorney general and need not be a state
employee at the time of his or her appointment.
(k) The commission’s power to initiate civil actions
under this subsection for the enforcement of chs. 5
to 10 or 12 shall be the exclusive remedy for alleged
civil violations of chs. 5 to 10 or 12.
Wis. Stat. § 5.05(1)(f)
Elections commission; powers and duties
[Commission’s rule-making authority]
* * *
(f) Promulgate rules under ch. 227 applicable to all
jurisdictions for the purpose of interpreting or implementing the laws regulating the conduct of elections
or election campaigns, other than laws regulating campaign financing, or ensuring their proper administration.

68a
Wis. Stat. § 6.84(1) and (2)
Construction [of Absentee Voting Statutes]
(1) Legislative policy. The legislature finds that
voting is a constitutional right, the vigorous exercise
of which should be strongly encouraged. In contrast,
voting by absentee ballot is a privilege exercised wholly
outside the traditional safeguards of the polling place.
The legislature finds that the privilege of voting by
absentee ballot must be carefully regulated to prevent
the potential for fraud or abuse; to prevent overzealous
solicitation of absent electors who may prefer not to
participate in an election; to prevent undue influence
on an absent elector to vote for or against a candidate
or to cast a particular vote in a referendum; or other
similar abuses.
(2) Interpretation. Notwithstanding s. 5.01(1), with
respect to matters relating to the absentee ballot
process, ss. 6.86, 6.87(3) to (7) and 9.01(1)(b)2. and 4.
shall be construed as mandatory. Ballots cast in contravention of the procedures specified in those
provisions may not be counted. Ballots counted in
contravention of the procedures specified in those
provisions may not be included in the certified result
of any election.
Wis. Stat. § 6.855
Alternate absentee ballot site
(1) The governing body of a municipality may elect to
designate a site other than the office of the municipal
clerk or board of election commissioners as the location
from which electors of the municipality may request
and vote absentee ballots and to which voted absentee
ballots shall be returned by electors for any election.
The designated site shall be located as near as
practicable to the office of the municipal clerk or board

69a
of election commissioners and no site may be designated that affords an advantage to any political party.
An election by a governing body to designate an
alternate site under this section shall be made no
fewer than 14 days prior to the time that absentee
ballots are available for the primary under s.
7.15(1)(cm), if a primary is scheduled to be held, or at
least 14 days prior to the time that absentee ballots
are available for the election under s. 7.15(1)(cm), if a
primary is not scheduled to be held, and shall remain
in effect until at least the day after the election. If the
governing body of a municipality makes an election
under this section, no function related to voting and
return of absentee ballots that is to be conducted at
the alternate site may be conducted in the office of the
municipal clerk or board of election commissioners.
* * *
(3) An alternate site under sub. (1) shall be staffed by
the municipal clerk or the executive director of the
board of election commissioners, or employees of the
clerk or the board of election commissioners.
(4) An alternate site under sub. (1) shall be accessible
to all individuals with disabilities.
Wis. Stat. § 6.86(1)(b)
Methods for obtaining an absentee ballot
* * *
(1)(b) Except as provided in this section, if application
is made by mail, the application shall be received no
later than 5 p.m. on the 5th day immediately preceding the election. If application is made in person, the
application shall be made no earlier than 14 days
preceding the election and no later than the Sunday
preceding the election. No application may be received

70a
on a legal holiday. A municipality shall specify the
hours in the notice under s. 10.01(2)(e). The municipal
clerk or an election official shall witness the certificate
for any in-person absentee ballot cast. Except as
provided in par. (c), if the elector is making written
application for an absentee ballot at the partisan
primary, the general election, the presidential preference primary, or a special election for national office,
and the application indicates that the elector is a
military elector, as defined in s. 6.34(1), the application shall be received by the municipal clerk no later
than 5 p.m. on election day. If the application indicates
that the reason for requesting an absentee ballot is
that the elector is a sequestered juror, the application
shall be received no later than 5 p.m. on election day.
If the application is received after 5 p.m. on the Friday
immediately preceding the election, the municipal
clerk or the clerk’s agent shall immediately take the
ballot to the court in which the elector is serving as a
juror and deposit it with the judge. The judge shall
recess court, as soon as convenient, and give the
elector the ballot. The judge shall then witness the
voting procedure as provided in s. 6.87 and shall
deliver the ballot to the clerk or agent of the clerk who
shall deliver it to the polling place or, in municipalities
where absentee ballots are canvassed under s. 7.52,
to the municipal clerk as required in s. 6.88. If
application is made under sub. (2) or (2m), the application may be received no later than 5 p.m. on the Friday
immediately preceding the election.
Wis. Stat. § 6.86(2)(b)
Methods for obtaining an absentee ballot
* * *
(2)(b) The mailing list established under this subsection shall be kept current through all possible means.

71a
If an elector fails to cast and return an absentee ballot
received under this subsection, the clerk shall notify
the elector by 1st class letter or postcard that his or
her name will be removed from the mailing list unless
the clerk receives a renewal of the application within
30 days of the notification. The clerk shall remove from
the list the name of each elector who does not apply for
renewal within the 30-day period. The clerk shall remove
the name of any other elector from the list upon request
of the elector or upon receipt of reliable information
that an elector no longer qualifies for the service. The
clerk shall notify the elector of such action not taken
at the elector’s request within 5 days, if possible.
Wis. Stat. § 6.87
Absent voting procedure
(1) Upon proper request made within the period
prescribed in s. 6.86, the municipal clerk or a deputy
clerk authorized by the municipal clerk shall write on
the official ballot, in the space for official endorsement,
the clerk’s initials and official title. Unless application
is made in person under s. 6.86(1)(ar), the absent
elector is exempted from providing proof of identification under sub. (4)(b)2. or 3., or the applicant is a
military or overseas elector, the absent elector shall
enclose a copy of his or her proof of identification or
any authorized substitute document with his or her
application. The municipal clerk shall verify that the
name on the proof of identification conforms to the
name on the application. The clerk shall not issue an
absentee ballot to an elector who is required to enclose
a copy of proof of identification or an authorized substitute document with his or her application unless the
copy is enclosed and the proof is verified by the clerk.
(2) Except as authorized under sub. (3)(d), the
municipal clerk shall place the ballot in an unsealed

72a
envelope furnished by the clerk. The envelope shall
have the name, official title and post-office address of
the clerk upon its face. The other side of the envelope
shall have a printed certificate which shall include a
space for the municipal clerk or deputy clerk to enter
his or her initials indicating that if the absentee
elector voted in person under s. 6.86(1)(ar), the elector
presented proof of identification to the clerk and the
clerk verified the proof presented. The certificate shall
also include a space for the municipal clerk or deputy
clerk to enter his or her initials indicating that the
elector is exempt from providing proof of identification
because the individual is a military elector or an
overseas elector who does not qualify as a resident of
this state under s. 6.10 or is exempted from providing
proof of identification under sub. (4)(b)2. or 3. The
certificate shall be in substantially the following form:
[STATE OF . . .
County of . . .]
or
[(name of foreign
jurisdictional unit)]

country

and

city

or

other

I, . . ., certify subject to the penalties of s. 12.60(1)(b),
Wis. Stats., for false statements, that I am a resident
of the [. . . ward of the] (town)(village) of . . ., or of the
. . . aldermanic district in the city of . . ., residing at . . .*
in said city, the county of . . ., state of Wisconsin, and
am entitled to vote in the (ward)(election district) at
the election to be held on . . .; that I am not voting at
any other location in this election; that I am unable or
unwilling to appear at the polling place in the (ward)
(election district) on election day or have changed my
residence within the state from one ward or election
district to another later than 28 days before the

73a
election. I certify that I exhibited the enclosed ballot
unmarked to the witness, that I then in (his)(her)
presence and in the presence of no other person
marked the ballot and enclosed and sealed the same in
this envelope in such a manner that no one but myself
and any person rendering assistance under s. 6.87(5),
Wis. Stats., if I requested assistance, could know how
I voted.
Signed . . .
Identification serial number, if any: . . .
The witness shall execute the following:
I, the undersigned witness, subject to the penalties of
s. 12.60(1)(b), Wis. Stats., for false statements, certify
that I am an adult U.S. citizen**and that the above
statements are true and the voting procedure was
executed as there stated. I am not a candidate for any
office on the enclosed ballot (except in the case of an
incumbent municipal clerk). I did not solicit or advise
the elector to vote for or against any candidate or
measure.
. . .( Printed name)
. . .(Address)***
Signed . . .
*--An elector who provides an identification serial
number issued under s. 6.47(3), Wis. Stats., need not
provide a street address.
**--An individual who serves as a witness for a
military elector or an overseas elector voting absentee,
regardless of whether the elector qualifies as a
resident of Wisconsin under s. 6.10, Wis. Stats., need
not be a U.S. citizen but must be 18 years of age or
older.

74a
***--If this form is executed before 2 special voting
deputies under s. 6.875(6), Wis. Stats., both deputies
shall witness and sign.
(3) (a) Except as authorized under par. (d) and as
otherwise provided in s. 6.875, the municipal clerk
shall mail the absentee ballot to the elector’s
residence unless otherwise directed by the elector,
or shall deliver it to the elector personally at the
clerk’s office or at an alternate site under s. 6.855.
If the ballot is mailed, and the ballot qualifies for
mailing free of postage under federal free postage
laws, the clerk shall affix the appropriate legend
required by U.S. postal regulations. Otherwise,
the clerk shall pay the postage required for return
when the ballot is mailed from within the United
States. If the ballot is not mailed by the absentee
elector from within the United States, the absentee elector shall provide return postage. If the
ballot is delivered to the elector at the clerk’s
office, or an alternate site under s. 6.855, the
ballot shall be voted at the office or alternate site
and may not be removed by the elector therefrom.
(b) No elector may direct that a ballot be sent to
the address of a committee registered with the
ethics commission under ch. 11 unless the elector
permanently or temporarily resides at that address.
Upon receipt of reliable information that an address
given by an elector is not eligible to receive ballots
under this subsection, the municipal clerk shall
refrain from mailing or transmitting ballots to
that address. Whenever possible, the municipal
clerk shall notify an elector if his or her ballot
cannot be mailed or transmitted to the address
directed by the elector.
[(c) is omitted in the statute]

75a
(d) A municipal clerk shall, if the clerk is reliably
informed by a military elector, as defined in s. 6.34(1),
or an overseas elector, regardless of whether the
elector qualifies as a resident of this state under
s. 6.10, of a facsimile transmission number or
electronic mail address where the elector can
receive an absentee ballot, transmit a facsimile or
electronic copy of the elector’s ballot to that elector
in lieu of mailing under this subsection. An elector
may receive an absentee ballot only if the elector
is a military elector or an overseas elector and has
filed a valid application for the ballot as provided
in s. 6.86(1). If the clerk transmits an absentee
ballot to a military or overseas elector electronically, the clerk shall also transmit a facsimile or
electronic copy of the text of the material that
appears on the certificate envelope prescribed in
sub. (2), together with instructions prescribed by
the commission. The instructions shall require the
military or overseas elector to make and subscribe
to the certification as required under sub. (4)(b)
and to enclose the absentee ballot in a separate
envelope contained within a larger envelope, that
shall include the completed certificate. The elector
shall then affix sufficient postage unless the absentee ballot qualifies for mailing free of postage
under federal free postage laws and shall mail the
absentee ballot to the municipal clerk. Except
as authorized in s. 6.97(2), an absentee ballot
received from a military or overseas elector who
receives the ballot electronically shall not be
counted unless it is cast in the manner prescribed
in this paragraph and sub. (4) and in accordance
with the instructions provided by the commission.
(4) (a) In this subsection, “military elector” has
the meaning given in s. 6.34(1).

76a
(b) 1. Except as otherwise provided in s. 6.875,
an elector voting absentee, other than a military
elector or an overseas elector, shall make and
subscribe to the certification before one witness
who is an adult U.S. citizen. A military elector
or an overseas elector voting absentee, regardless of whether the elector qualifies as a
resident of this state under s. 6.10, shall make
and subscribe to the certification before one
witness who is an adult but who need not be a
U.S. citizen. The absent elector, in the presence
of the witness, shall mark the ballot in a
manner that will not disclose how the elector’s
vote is cast. The elector shall then, still in the
presence of the witness, fold the ballots so
each is separate and so that the elector conceals
the markings thereon and deposit them in the
proper envelope. If a consolidated ballot under
s. 5.655 is used, the elector shall fold the
ballot so that the elector conceals the markings
thereon and deposit the ballot in the proper
envelope. If proof of residence under s. 6.34 is
required and the document enclosed by the
elector under this subdivision does not constitute proof of residence under s. 6.34, the elector
shall also enclose proof of residence under s.
6.34 in the envelope. Except as provided in s.
6.34(2m), proof of residence is required if the
elector is not a military elector or an overseas
elector and the elector registered by mail or by
electronic application and has not voted in an
election in this state. If the elector requested a
ballot by means of facsimile transmission or
electronic mail under s. 6.86(1)(ac), the elector
shall enclose in the envelope a copy of the
request which bears an original signature of the

77a
elector. The elector may receive assistance
under sub. (5). The return envelope shall then
be sealed. The witness may not be a candidate.
The envelope shall be mailed by the elector, or
delivered in person, to the municipal clerk
issuing the ballot or ballots. If the envelope is
mailed from a location outside the United States,
the elector shall affix sufficient postage unless
the ballot qualifies for delivery free of postage
under federal law. Failure to return an unused
ballot in a primary does not invalidate the ballot
on which the elector’s votes are cast. Return of
more than one marked ballot in a primary or
return of a ballot prepared under s. 5.655 or a
ballot used with an electronic voting system in
a primary which is marked for candidates of
more than one party invalidates all votes cast
by the elector for candidates in the primary.
2. Unless subd. 3. applies, if the absentee elector
has applied for and qualified to receive absentee
ballots automatically under s. 6.86(2)(a), the
elector may, in lieu of providing proof of identification, submit with his or her absentee ballot
a statement signed by the same individual who
witnesses voting of the ballot which contains
the name and address of the elector and verifies
that the name and address are correct.
3. If the absentee elector has received an absentee ballot from the municipal clerk by mail for a
previous election, has provided proof of identification with that ballot, and has not changed
his or her name or address since providing
that proof of identification, the elector is not
required to provide proof of identification.

78a
4. If the absentee elector has received a citation
or notice of intent to revoke or suspend an
operator’s license from a law enforcement officer
in any jurisdiction that is dated within 60 days
of the date of the election and is required to
surrender his or her operator’s license or
driving receipt issued to the elector under ch.
343 at the time the citation or notice is issued,
the elector may enclose a copy of the citation or
notice in lieu of a copy of an operator’s license or
driving receipt issued under ch. 343 if the
elector is voting by mail, or may present an
original copy of the citation or notice in lieu of
an operator’s license or driving receipt under ch.
343 if the elector is voting at the office of the
municipal clerk.
5. Unless subd. 3. or 4. applies, if the absentee
elector resides in a qualified retirement home,
as defined in s. 6.875(1)(at), or a residential care
facility, as defined in s. 6.875(1)(bm), and the
municipal clerk or board of election commissioners of the municipality where the facilityor
home is located does not send special voting
deputies to visit the facility or home at the
election under s. 6.875, the elector may, in lieu
of providing proof of identification, submit with
his or her absentee ballot a statement signed by
the same individual who witnesses voting of
the ballot that contains the certification of an
authorized representative of the facility or
home that the elector resides in the facility or
home and the facility or home is certified or
registered as required by law, that contains the
name and address of the elector, and that
verifies that the name and address are correct.

79a
(5) If the absent elector declares that he or she is
unable to read, has difficulty in reading, writing or
understanding English or due to disability is unable
to mark his or her ballot, the elector may select any
individual, except the elector’s employer or an agent
of that employer or an officer or agent of a labor
organization which represents the elector, to assist
in marking the ballot, and the assistant shall then
sign his or her name to a certification on the back of
the ballot, as provided under s. 5.55.
(6) The ballot shall be returned so it is delivered to
the polling place no later than 8 p.m. on election day.
Except in municipalities where absentee ballots
are canvassed under s. 7.52, if the municipal clerk
receives an absentee ballot on election day, the clerk
shall secure the ballot and cause the ballot to be
delivered to the polling place serving the elector’s
residence before 8 p.m. Any ballot not mailed or
delivered as provided in this subsection may not be
counted.
(6d) If a certificate is missing the address of a
witness, the ballot may not be counted.
(6m) Except as authorized in s. 6.47(8), the municipal clerk shall withhold from public inspection
under s. 19.35(1) the name and address of any
absent elector who obtains a confidential listing
under s. 6.47(2).
(7) No individual who is a candidate at the election
in which absentee ballots are cast may serve as a
witness. Any candidate who serves as a witness
shall be penalized by the discounting of a number of
votes for his or her candidacy equal to the number
of certificate envelopes bearing his or her signature.

80a
(8) The provisions of this section which prohibit
candidates from serving as a witness for absentee
electors shall not apply to the municipal clerk in the
performance of the clerk’s official duties.
(9) If a municipal clerk receives an absentee ballot
with an improperly completed certificate or with no
certificate, the clerk may return the ballot to the
elector, inside the sealed envelope when an envelope
is received, together with a new envelope if necessary, whenever time permits the elector to correct
the defect and return the ballot within the period
authorized under sub. (6).
Wis. Stat. § 6.87(1)
Absent voting procedure
[Enclosing ID with application]
(1) Upon proper request made within the period
prescribed in s. 6.86, the municipal clerk or a deputy
clerk authorized by the municipal clerk shall write on
the official ballot, in the space for official endorsement,
the clerk’s initials and official title. Unless application
is made in person under s. 6.86(1)(ar), the absent
elector is exempted from providing proof of identification under sub. (4)(b)2. or 3., or the applicant is a
military or overseas elector, the absent elector shall
enclose a copy of his or her proof of identification or
any authorized substitute document with his or her
application. The municipal clerk shall verify that the
name on the proof of identification conforms to the
name on the application. The clerk shall not issue an
absentee ballot to an elector who is required to enclose
a copy of proof of identification or an authorized substitute document with his or her application unless the
copy is enclosed and the proof is verified by the clerk.

81a
Wis. Stat. § 6.87(4)(b)(1)
Absent voting procedure (part 1)
[Marking the Ballot]
* * *
(4)(b)1. Except as otherwise provided in s. 6.875, an
elector voting absentee, other than a military elector
or an overseas elector, shall make and subscribe to the
certification before one witness who is an adult U.S.
citizen. A military elector or an overseas elector voting
absentee, regardless of whether the elector qualifies as
a resident of this state under s. 6.10, shall make and
subscribe to the certification before one witness who is
an adult but who need not be a U.S. citizen. The absent
elector, in the presence of the witness, shall mark the
ballot in a manner that will not disclose how the
elector’s vote is cast.
Wis. Stat. § 6.87(4)(b)(1)
Absent voting procedure (part 2)
[Placing the Ballot in the Ballot Envelope]
* * *
The elector shall then, still in the presence of the
witness, fold the ballots so each is separate and so that
the elector conceals the markings thereon and deposit
them in the proper envelope. If a consolidated ballot
under s. 5.655 is used, the elector shall fold the ballot
so that the elector conceals the markings thereon and
deposit the ballot in the proper envelope. If proof of
residence under s. 6.34 is required and the document
enclosed by the elector under this subdivision does not
constitute proof of residence under s. 6.34, the elector
shall also enclose proof of residence under s. 6.34 in
the envelope. Except as provided in s. 6.34(2m), proof
of residence is required if the elector is not a military
elector or an overseas elector and the elector

82a
registered by mail or by electronic application and has
not voted in an election in this state. If the elector
requested a ballot by means of facsimile transmission
or electronic mail under s. 6.86(1)(ac), the elector shall
enclose in the envelope a copy of the request which
bears an original signature of the elector. The elector
may receive assistance under sub. (5). The return
envelope shall then be sealed. The witness may not be
a candidate.
Wis. Stat. § 6.87(4)(b)(1)
Absent voting procedure (part 3)
[Returning the Ballot]
* * *
The envelope shall be mailed by the elector, or
delivered in person, to the municipal clerk issuing the
ballot or ballots. If the envelope is mailed from a
location outside the United States, the elector shall
affix sufficient postage unless the ballot qualifies for
delivery free of postage under federal law. Failure to
return an unused ballot in a primary does not
invalidate the ballot on which the elector’s votes are
cast. Return of more than one marked ballot in a
primary or return of a ballot prepared under s. 5.655
or a ballot used with an electronic voting system in a
primary which is marked for candidates of more than
one party invalidates all votes cast by the elector for
candidates in the primary.

83a
Wis. Stat. § 6.87(4)(b)(2)
Absent voting procedure
[“Indefinitely confined” exemption from photo
ID]
* * *
(4)(b)2. Unless subd. 3. applies, if the absentee elector
has applied for and qualified to receive absentee
ballots automatically under s. 6.86(2)(a), the elector
may, in lieu of providing proof of identification, submit
with his or her absentee ballot a statement signed by
the same individual who witnesses voting of the ballot
which contains the name and address of the elector
and verifies that the name and address are correct.
Wis. Stat. § 6.87(4)(b)(3)
Absent voting procedure
[Second-time absentee voter who has not
changed name or address, exemption from
photo ID]
* * *
(4)(b)3. If the absentee elector has received an
absentee ballot from the municipal clerk by mail for a
previous election, has provided proof of identification
with that ballot, and has not changed his or her name
or address since providing that proof of identification,
the elector is not required to provide proof of
identification.

84a
Wis. Stat. § 6.87(6) and (6d)
Absent voting procedure
[Return of the Ballot - continued from
§ 6.87(4)(b)(1)]
* * *
(6) The ballot shall be returned so it is delivered to the
polling place no later than 8 p.m. on election day.
Except in municipalities where absentee ballots are
canvassed under s. 7.52, if the municipal clerk receives
an absentee ballot on election day, the clerk shall
secure the ballot and cause the ballot to be delivered
to the polling place serving the elector’s residence
before 8 p.m. Any ballot not mailed or delivered as
provided in this subsection may not be counted.
(6d) If a certificate is missing the address of a witness,
the ballot may not be counted.
Wis. Stat. § 6.87(9)
Absent voting procedure
[Clerk’s return of a ballot with a defective
certification]
* * *
(9) If a municipal clerk receives an absentee ballot
with an improperly completed ce rtificate or with no
certificate, the clerk may return the ballot to the
elector, inside the sealed envelope when an envelope
is received, together with a new envelope if necessary,
whenever time permits the elector to correct the defect
and return the ballot within the period authorized
under sub. (6).

85a
Wis. Stat. § 6.88(1)
Voting and recording the absentee ballot
[Clerk’s receipt of ballot and placement in
carrier envelope]
(1) When an absentee ballot arrives at the office of the
municipal clerk, or at an alternate site under s. 6.855,
if applicable, the clerk shall enclose it, unopened, in a
carrier envelope which shall be securely sealed and
endorsed with the name and official title of the clerk,
and the words “This envelope contains the ballot of an
absent elector and must be opened in the same room
where votes are being cast at the polls during polling
hours on election day or, in municipalities where
absentee ballots are canvassed under s. 7.52, stats., at
a meeting of the municipal board of absentee ballot
canvassers under s. 7.52, stats.” If the elector is a
military elector, as defined in s. 6.34(1), or an overseas
elector, regardless of whether the elector qualifies as a
resident of this state under s. 6.10, and the ballot was
received by the elector by facsimile transmission or
electronic mail and is accompanied by a separate
certificate, the clerk shall enclose the ballot in a certificate envelope and securely append the completed
certificate to the outside of the envelope before enclosing the ballot in the carrier envelope. The clerk shall
keep the ballot in the clerk’s office or at the alternate
site, if applicable until delivered, as required in sub. (2).
Wis. Stat. § 6.88(3)(b)
Voting and recording the absentee ballot
[Inspector review – certification insufficient]
* * *
(3)(b) When the inspectors find that a certification is
insufficient, that the applicant is not a qualified elector
in the ward or election district, that the ballot envelope

86a
is open or has been opened and resealed, that the
ballot envelope contains more than one ballot of any
one kind or, except in municipalities where absentee
ballots are canvassed under s. 7.52, that the certificate
of a military or overseas elector who received an
absentee ballot by facsimile transmission or electronic
mail is missing, or if proof is submitted to the inspectors that an elector voting an absentee ballot has since
died, the inspectors shall not count the ballot. The
inspectors shall endorse every ballot not counted on
the back, “rejected (giving the reason)”. The inspectors
shall reinsert each rejected ballot into the certificate
envelope in which it was delivered and enclose the
certificate envelopes and ballots, and securely seal the
ballots and envelopes in an envelope marked for
rejected absentee ballots. The inspectors shall endorse
the envelope, “rejected ballots” with a statement of the
ward or election district and date of the election,
signed by the chief inspector and one of the inspectors
representing each of the 2 major political parties and
returned to the municipal clerk in the same manner as
official ballots voted at the election.
Wis. Stat. § 6.87(6d)
Absent voting procedure
[Return of the ballot]
(6d) If a certificate is missing the address of a witness,
the ballot may not be counted.
Wis. Stat. § 7.15(2m)
Municipal clerks
[Staffing absentee ballot site]
* * *
(2m) Operation of alternate absentee ballot site. In a
municipality in which the governing body has elected
to establish an alternate absentee ballot site under s.

87a
6.855, the municipal clerk shall operate such site as
though it were his or her office for absentee ballot
purposes and shall ensure that such site is adequately
staffed.
Wis. Stat. § 227.112(3)
Guidance documents
* * *
(3) A guidance document does not have the force of
law and does not provide the authority for implementing or enforcing a standard, requirement, or threshold,
including as a term or condition of any license. An
agency that proposes to rely on a guidance document
to the detriment of a person in any proceeding shall
afford the person an adequate opportunity to contest
the legality or wisdom of a position taken in the
guidance document. An agency may not use a guidance
document to foreclose consideration of any issue raised
in the guidance document.

